Supreme Court, U.S.
FILED

APR 0 3 2021
OFFICE OF THE CLERK

In The
Supreme Court of the United States
JAKARA VESTER,
Petitioner
v.

HENLOPEN LANDING HOMEOWNERS
ASSOCIATION, INC., and PREMIER PROPERTY AND
POOL MANAGEMENT, LLC.,
Respondents

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF
DELAWARE
PETITION FOR A WRIT OF CERTIORARI
JaKara Vester
32878 Inlet Way
Lewes, DE. 19958
302-827-2797
Jvester2003@yahoo.com

QUESTIONS PRESENTED
The Fair Housing Act (“FHA”) is a policy enacted by
Congress to provide, within constitutional limitations, for fair
housing throughout the United States. (42 U.S. Code §3601(et
seq.)) By outlawing individual acts of discrimination, you will
foster integration. The 1968 FHA was enacted when racially
discriminatory rules, laws, covenants, etc. were blatant and
overt. It would be another 20 years before families and the
disabled would gain protection under the Acts.
Like all things in life, discriminatory acts evolve. Now,
intentional discriminatory and retaliatory acts exist in a
continuum of subtlety and are cloaked in ordinarily
permissible actions; but when actions are applied in a
disparate manner or as a result of an unfavored but protected
activity—without any legitimate reason—those acts are no
longer permissible. The disparate treatment is proof of
discriminatory animus. When housing-providers ignore,
disregard, dismiss the disabled, it is intentional
discrimination and when inaction deprives the disabled from
equal housing, they are liable for violating the FHA. To
determine indirect, pretextual discrimination, the Courts
must apply the elements and burdens of proof properly and
consider the entirety of all the circumstances of the alleged
discriminatory acts.
This Court has held that the language of the FHA
prohibiting discrimination in housing is “broad and inclusive,”
(Trafficante v. Metropolitan Life Ins. Co., 409 U.S. 205 (1972))
(City of Edmonds v. Oxford House, Inc., 514 U.S. 725 (1995))
and requires a “broad and liberal construction,” but
sometimes too broad and liberal interpretation and
application may frustrate rather than promote justice and not
serve to effectuate the plain and clear language of the FHA.
This Court must provide clear direction to provide equal
justice under the law. Victims of discrimination should not be
revictimized by State Courts when they issue erroneous
decisions because they are not bound by the federal precedent
and fail to properly apply elements of FHA discrimination

11

claims or dismiss a victim’s complaint because the pro se
party is unable to navigate the complicated rules and
procedures of appeal. The case below illustrates the injustice
that occurs when the victim is denied their choice of law
because the Respondent files a retaliatory lawsuit in a
respected “Corporation Court” with little to no experience and
scant to nil FHA binding case law. This Court must make it
clear that housing providers cannot ignore reasonableaccommodation requests and avoid liability for their
discriminatory actions by bullying the disabled and cannot
hide their discriminatory acts in pretextual claims of
settlement negotiations.
It is clear, for 8 years, Petitioner (“Vester”1) requested
reasonable and necessary accommodations from Respondents,
Henlopen Landing Homeowners Association (“HLHA”) for
variances from §8.2.12 of HLHA’s “Declaration” to install a
6ft*fence enclosing their garage side-door to protect and
prevent their autistic 6 year-old son (“ZV”)—who frequently
eloped undetected from the home—from drowning (again) in
the adjacent community stormwater-ponds and to provide a
safe outdoor play area without fear that ZV would dart into
the street.
It is clear, for 8 years, Respondents (“Henlopen Landing
Homeowners Association” (“HLHA”) and its property
management company, Premier Property and Pool
Management, (“PPPM”)—admittedly—knew ZV is autistic
and had “special-needs” but ignored, failed to respond and
refused Vester’s multiple requests to fence-in her garage sidedoor and never affirmatively approved the requested height of
the fence without ever requesting further information or

1 The Vesters and their four children, a biracial family (Russell is AfricanAmerican and JaKara is Caucasian), moved to HLHA in January 2011
because of the proximity to the Sussex Autism Consortium their 5 y/o
autistic son (“ZV”) would attend school.
2 “Fences...shall be prohibited within the front-yard area of the lots and in
general shall not be closer to the front of the lot than one-half (1/2) of the
length of the side of the dwelling unit. The height of any such fence...along
the side of a unit shall not exceed 4ft (4’-0”).”

Ill

providing Vester an opportunity to present documentation
that would prove ZVs disability-related-needs.
Vester’s counterclaims finally went to trial to
determine only if the accommodations Vester requested were
reasonable and necessary.3 However, the Court found
Petitioner’s §3604(f)(3)(B) claim failed because, “the Vesters
have, however, failed to prove...that they requested a
reasonable accommodation4 from the Association.” (MO: p.29)
“Because the Vesters did not request an accommodation for
their son’s autism, the accommodation claim must fail.” (MO:
p.30) Despite finding all the prongs of a §3604(f)(3)(B) refusal
to accommodate claim were met. Illogically, the Court found
no request had been made, but “Vesters still seek an
accommodation for their child’s autism in the location of the
fence, [HLHA] should act on this request promptly, based on
Vesters’ true reason for applying for the variance, as an
accommodation for their child’s disability, as well as the
information submitted by Vester since the variance was
denied.” (MO: p.36)
Petitioners filed a motion for reargument, because the
Court’s 8/1/19 opinion showed a “misapprehension of fact”
because the Court failed to recognize the subsequent requests
on record and HLHA’s admissions, (DI-181: p.2-p.4:t3) and,
misunderstood/overlooked the legal principle and controlling
decisions that would have changed the earlier decision. At
oral argument, the Court showed its unfamiliarity of FHA
law, “But there was no formal request... with a new
application that recited the accommodation?” (DI-189: p.4:
tl9-p.5:^22) After explaining to the Court that the FHA does

3 “Whether the evidence shows that the request for accommodations were
necessary to afford the Vester’s equal opportunity to use and enjoy the
dwelling and if proven whether the evidence shows the requested
accommodations were reasonable.” (DI-161: p.22:^112)
4 To be clear, the Court uses the term “reasonable-accommodation” as a
term coined by the Court specific to specific requests under the FHA; does
not mean the accommodation requested is unreasonable because the Court
orders HLHA to address Vesters fence variance request. (MO:p.30,
MO:p.36)

IV

not require formal written requests, Petitioners argued the
Court “erred as a matter of law” and failed to recognize that
HLHA’s refusal to engage in an interactive process and/or
request further information if it was “skeptical” of ZVs
disability-related-need for the requested accommodation.(DI189: p.5: 122-p. 11:124) The Court’s ignorance of FHA law is
evident, HLHA was “...not skeptical...they were told
something else...”(DI-189: p.8:16-118) even though the Court
found Vester’s request “pretextual” and assumed she had a
protective reason for not disclosing ZV’s disability. The Court
denied the motion for reargument because, “Look, my view of
this is the same as it was when I wrote the decision. I think it
is inappropriate in a case where a homeowner
makes...pretextual applications, and then once the matter is
in litigation there are attempts to settle the matter or resolve
issues, to consider that as a Fair Housing Act request for an
accommodation. It seems to me that it would be inequitable to
do so; that it would not be consistent with the policy of the
law. And so, I deny it here. If I’m wrong you can take an
appeal...” (DI-189: p.14: f 13-122) “...that doesn’t strike me as
the kind of scenario that warrants finding that the fact that
this matter went forward to a determination in court rather
than an immediate capitulation by the Homeowners
Association is a violation of the Fair Housing Act. And if I’m
wrong, Counsel, I’m wrong. But that’s how I view it. So I’m
denying the motion for reargument.” (Reargument tr p. 15:
t8-116)
1) If a State Court is not bound by any precedent in
determining FHA violations, is it obligated to apply the
established principle of law of its Circuit or other similarly
situated caselaw? i.e.; If a FHA reasonable accommodation
claim defendant admits to receiving and refusing/not
responding to requests for reasonable accommodations can
the Court provide a novel defense never advanced by a
defendant, and find the §3604(f)(3)(B) claim failed because the
plaintiff failed to make a request? (MO:p.30)

V

2) Is a housing-provider entitled to wait for a court’s
instruction/decision on whether a requested accommodation is
reasonable and necessary before it approves the request? Or
is the housing-provider liable for violating §3604(f)(3)(B) at
the time it refused a reasonable and necessary request for an
accommodation so that a disabled person may equally use and
enjoy a dwelling? (DI-189: p.15:^6-18)
3) When does an accommodation request trigger a housingprovider to consider the request for accommodation? Is it
“inappropriate” (DI-189: p.14:^13-^22) to consider subsequent
requests for reasonable accommodations (and/or disabilityverification) if they are produced after the filing of a housing
discrimination complaint with HUD/DDHR if the housing
provider closed the request, denied an appeal, refused to
engage in an interactive process?
a) Must the requestor disclose sensitive, personal, and
private health information when the request for
accommodation is publicized and/or may subject the disabled
and/or requestor to embarrassment and/or discriminatory
harassment? In other words, must the disabled forfeit their
constitutional right of privacy in exchange for their
constitutional right of equal protection/equal access?
b) Or; is the “request” element satisfied when the
housing-provider has notice of a disability and desire for an
accommodation in rules, policies, practices, or services?
Thereby shifting the burden unto the housing-provider to
make “appropriate inquiries” to affirmatively grant
reasonable accommodations necessary for the disabled to
equally use and enjoy a dwelling in compliance with the FHA?
(As defined by the 3rd and 11th Circuits)
4) Is a housing provider liable under the FHA for refusing a
request for reasonable and necessary accommodations when
the refusal points to the housing provider failing to engage,
short-circuiting, and/or stonewalling the “interactive process”
even if the request for accommodation may not appear to be
directly to any known disability?

VI

i.e., Must a housing provider supply an explanation for
denying a requested accommodation, offer alternative
accommodations, provide an opportunity for the requestor to
appeal/present documentation to support the disabilityrelated-need for the requested accommodation prior to
denying the requested accommodation?
5) Is discriminatory animus/ intentional discrimination an
essential element of a §3617 retaliation claim? Or rather, is
< *.the focus of a retaliation claim on whether the Defendants
actions were motivated by Plaintiffs exercise of a right
granted or protected under the FHA?
5) Must Courts apply liberal construction to all pro se filings,
including civil appellate briefs, motions, etc. and hold pro se
briefs and motions to less stringent formatting standards
than those drafted by lawyers in order to preserve the pro se
civil litigant’s protected interest in a meaningful opportunity
to be heard, to amend an error of law and/or to serve in the
interest of justice? Should a Court assume a Pro Se party is
knowledgeable of “rules” outside of the explicitly stated Rules
of the Court? (i.e.; “proper-spacing” and “improper-spacing”
will cause a miscalculation of some word processing programs)
Must a Court exercise “special care” and consider any
available less severe remedies that would not prejudice or
harm the other party before dismissing an appeal/claim?
Would dismissing an appeal/court filing upon a civil pro se
litigant’s failure to strictly comply with the Court’s technical
formatting rules deprive the htigant of equal protection and
due process protection under the Constitution when the noncompliance was a result of “incompetence” or less than
“professional expectations” of attorneys? i.e., if an
inexperienced pro se litigant exceeds the word-limit by
depending upon the word processer’s inaccurate “word-

Vll

count”—as instructed by the Court Rules5—must the Court
consider the pro se’s informal request to exceed the wordcount
if the “Court finds Vester erred in relying upon Microsoft
Word’s word count and finds Vester’s Opening Brief to be over
the word limit” or even accept the technically non-compliant
brief when doing so would not prejudice or harm the opposing
party by affording opposing party the same extension and
would serve in the interest of justice? 6

5 Rule 14(d)(i): The person preparing the certificate must state the
number of words in the brief and may rely on the word count of the
word processing program used to prepare the brief.
6 The Court found inadvertent spacing errors caused by an inexperienced
user caused an inaccurate wordcount in Microsoft Word though the Court
never stated what it found the word count to be or how it determined the
conflicting count.

vrn
LIST OF PARTIES
Petitioner here and Appellant below is Jakara
Vester. Russell Vester (estranged husband) and JaKara
Vester together were Counterclaim Plaintiffs/Respondents
below. (Mother to four bi-racial children, one of whom is
autistic.)
Respondents here and Appellees-Counterclaim
Defendants/Petitioner below are Henlopen Landing
Homeowners Association, Inc. (“HLHA”) (A non-profit
Delaware corporation that is responsible for, inter alia,
enforcing the terms, rules, and restrictions of the Declaration
of the planned community of Henlopen Landing whose
property therein is subject to the Covenants, Conditions, and
Restrictions (“Declaration”) which is governed by Delaware
Uniform Common Interest Ownership Act (“DUCIOA”) and
Premier Property & Pool Management, LLC,(“PPPM”) A/K/A
Premier Property Management (“Premier”). HLHA’s former
Property Management Company
RELATED PROCEEDINGS
-Henlopen Landing Homeowners Ass 'n, Inc. u. Vester, C.A. No.
7229-VCG (Del. Ch. Aug. 15, 2017) (Oral Argument and
Order for Summary Judgement; Dismissing HLHA’s claims
as moot without prejudice to HLHA’s opportunity to file a fee
request) (DI-148)(Pet. App. J)
-Henlopen Landing Homeowners Ass'n Inc. u. Vester No. 7229MA, 2015 WL 5316864 (Del. Ch. Sept. 14, 2015) (Letter
Opinion involving exceptions to the February 25, 2015, Final
Report granting Vesters’ Motion to Amend issued.)(DI-86)
-Henlopen Landing Homeowners Ass'n, Inc. v. Vester, C.A. No.
7229-MA (Del. Ch. Feb. 25, 2015)( Master’s Opinion involving
Vesters’ Motion to Amend)(DI-61)(Pet. App. K)
-Henlopen Landing Homeowners Ass'n, Inc. v. Vester, No. 12308-RGA-CJB, 2013 WL 1704889 (D. Del. Apr. 19, 2013)
(“mere act of bringing state court action to enforce restrictive
covenant did not violate FHA, so removal under §1443(1) was
improper”) (5/14/2013; Final order remanding case to Court of
Chancery for lack of subject matter jurisdiction) (Pet. App. L)

IX

PETITION FOR WRIT OF CERTIORARI
Petitioner (“Vester”) respectfully prays that a writ of
certiorari issue to review the judgements below.
OPINIONS BELOW
Vester v. Henlopen Landing Homeowners Ass'n, No. 417, 2019
(Del. Oct. 15, 2020) (Under Supreme Court Rule 29(b) appeal
dismissed(Pet. App. A)
Henlopen Landing Homeowners Ass'n v. Vester, C.A. No.
7229-VCG (Del. Ch. Aug. 30, 2019) (“Final Order”) (Pet. App.
C)
Henlopen Landing Homeowners Ass'n v. Vester, C.A. No.
7229-VCG (Del. Ch. Aug. 1, 2019) (“Memorandum Opinion”,
“MO”, Partial Order) (Pet. App. B)
JURISDICTION
The Delaware Supreme Court entered its
judgement on October 15, 2020. (Pet. App. A). A timely
petition for rehearing and rehearing en banc was denied on
11/13/20. (Pet. App D). Per this Courts March 19, 2020 Order,
and November 13, 2020 “Guidance Concerning Clerk’s Office
Operations” concerning the COVID Pandemic State of
Emergency; “the deadline to file any petition for writ of
certiorari due on or after [March 19, 2020] is extended to 150
days from the date of the lower court judgement...or order
denying a timely petition for rehearing.” The Jurisdiction of
this Court is invoked under 28 U.S.C. §1257(a).
STATUTORY PROVISIONS INVOLVED
(see appendix for inclusive list)
Constitutional
Fourteenth Amendment’s Equal Protection
Clause/ Due Process Clause
Statutes
42 U.S. Code § 3601. (et seq.) Fair Housing Acts
It is the policy of the United States to provide, within
constitutional limitations, for fair housing throughout the
United States.

X

42 U.S. Code § 3604 - Discrimination in the sale or
rental of housing and other prohibited practices
As made applicable by section 3603 of this title and
except as exempted by sections 3603(b) and 3607 of this title,
it shall be unlawful—
(b)To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a dwelling, or in
the provision of services or facilities in connection therewith,
because of race, color, religion, sex, familial status, or national
origin.
(f)(2) To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a dwelling, or in
the provision of services or facilities in connection with such
dwelling, because of a handicap of—
(A)that person; or
(B)a person residing in or intending to reside in that
dwelling after it is so sold, rented, or made available; or
(C)any person associated with that person.
(f)(3) For purposes of this subsection, discrimination
includes—
(B)a refusal to make reasonable accommodations in
rules, policies, practices, or services, when such
accommodations may be necessary to afford such person equal
opportunity to use and enjoy a dwelling
42 U.S. Code §3617: Interference, coercion, or
intimidation
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any person in the exercise or enjoyment of, or
on account of his having exercised or enjoyed, or on account of
his having aided or encouraged any other person in the
exercise or enjoyment of, any right granted or protected by
section 3603. 3604. 3605. or 3606 of this title.

1
Table of Contents
TITLE....................................................................

i

Questions Presented.......................................

i

List of Parties.....................................................

viii

Related Proceedings.......................................

viii

PETITION FOR WRIT OF CERTIORARI

ix

OPINIONS BELOW..........................................

ix

JURISDICTION.................................................

ix

STATUTORY PROVISIONS INVOLVED..

ix

Statement..................................................................

1

1st Reasonable Accommodation Requests.....................

1

HLHA’s Knowledge of Disability and Request............

3

Denial of Requested Accommodation & Request For
Appeal; Intentional Discrimination...............................

3

Disparate Treatment/Retaliation/HLHA’s Refusal to
Engage in “Interactive-Process”.....................................

5

DDHR Complaint; HLHA Lawsuit Against Vesters......... 6
Court Fails to Rule on Subsequent Accommodation
Requests on the Record/Vester’s Counterclaims.........

7

Court’s Initial Findings/HLHA’s Admissions
§3604(b)/(f)(2) & §3617 Claims.......................................

8

Retaliation Claims §3617/Case Law Conflicts............

9

Court Contradicts Initial Findings; Factual Findings
Support Legal Findings of §3617/ §3604(b)/(f)(2)
Violations.............................................................................

12

Reasonable Accommodation Claims §3604(f)(3)(B)........13
Court’s Factual Findings Contradict Findings of Law... 14

2
The Court Need Not Determine if Vester Failed to
Request an Accommodation........................................

15

The Court Ignored Established Precedent and Provided a
Defense Never Advanced by Respondents Ruling is
“Inconsistent With the Policy of the Law” (DI-148: p.14:
1121-1122)................................................................................... 17
Court Must Consider the Entirety of the Case When
Determining Reasonable Accommodation Claims......... 19
HLHA is Liable for Violating §3604(f)(3)(B) Because
HLHA Never Requested Further Information, Ignored
Appeal Requests and Subsequent Reasonable
Accommodation Requests..................................................... 19
HUD’s/DDHR’s Mandatory Conciliation Efforts............ 21
_Interactive Process Liability............................................ 22
Delaware Supreme Court Dismisses Appeal for
Inadvertently Exceeding Word Count.............................. 24
Reasons For Granting the Petition................... 26
The State Court’s Unsupported and Contradictory
Decision Diverts So Far from This Court’s/Circuit Court’s
Decisions/ Intent/Purpose of the FHA; It Demands This
Court’s Review or Risk Setting Precedent in Delaware,
Dividing the Courts, Denying Rights to the Disabled.... 27
Court’s Decision Unsupported by Law, Contradicts
Findings of Fact/Record........................................................ 28
Delaware Supreme Court Fails to Give Extra Care to a
Pro Se Litigant to Assure a Dismissal Will Not
Perpetuate the Deprivation of Constitutional Rights.....29
This Case Presents an Opportunity for This Court to Set
Precedent That Will Significantly Curtail Discrimination
Against Our Most Vulnerable Population. There Is No
Contradiction of Fact
31

3
Conclusion

34

1
TABLE OF CITATIONS
Cases
Astralis Condo. Assn. v. Sec'y, U.S. Dept, of Hous. & Urban
Dev., 620 F.3d 62, 68 (1st Cir. 2010..............................
20
Bloch v. Frischholz, 587 F.3d 771, 783 (7th Cir. 2009))
10
Boddie, 401 U.S., at 379......................................................
31
Bryant Woods Inn, Inc. v. Howard Cty. , 124 F.3d 597,
602 (4th Cir. 1997)...........................................................
14
Buck v. Bell, 274 U.S. 200 (1927)......................................
31
Bultemeyer v. Fort Wayne Community Sch., 100 F.3d 1281,
1285 (7th Cir. 1996
20
Burlington N. & Santa Fe R. Co. v. White) 548 U.S. 53, 57
(2006.......................................................................................... 11
City of Edmonds v. Oxford House, Inc., 514 U.S. 725 (1995))
l

City of Edmonds v. Oxford House, Inc., 514 U.S. 725, 731
27
(1995)
Douglas
19, 20
Douglas v. Kriegsfeld Corp., 884 A.2d 1109, 1121-22 (D.C.
2005)
19
Farrell v. Planters Lifesavers Co., 206 F.3d 271, 283—84 (3d
Cir. 2000) at 280.............................................................
11
Groome Res. Ltd. , 234 F.3d at 199................................
14
Haines v. Kerner, 404 U.S. 519, 520, 92 S.Ct. 594, 30
L.Ed.2d 652 (1972..........................................................
27
Henlopen Landing Homeowners Ass'n, Inc. v. Vester, C.A.
No. 7229-MA, at *14-15 (Del. Ch. Feb. 25, 2015)............ 16
Howard v. HMK Holdings, No.18-55923 (9th Cir. Feb. 23,
2021............................................................................................ 20
Jankowski Lee Associates v. Cisneros, 91 F.3d 891, 895 (7th
Cir. 1996))
20
Kachmar v. SunGard Data Sys., Inc., 109 F.3d 173, 177 (3d
Cir. 1997))............................................................................. 11
Lloyd v. Presby's Inspired Life, 251 F. Supp. 3d 891,
904(E.D. Pa. 2017))............................................................ 11
Madison v. Phila. Hous. Auth., No. 09-3400, 2010 WL
2572952 (E.D. Pa. June 23, 2010))(* Walker v. City of
Lakewood, 272 F.3d 1114, 1128 (9th Cir. 2001)........... 11

2
Olmstead v. L. C, 527 U.S. 581 (1999))
31
Revock v. Cowpet Bay W. Condo. Ass'n, 853 F.3d 96, 111 (3d
Cir. 2017
14
Sackman v. Balfour Beatty Cmtys., LLC, CV 113-066 (S.D.
Ga. Sep. 8, 2014)
24
Saville u. Quaker Hill Place, 531 A.2d 201, 206 (Del. 1987)
13
Shannon v. United States Dept, of Housing Urban Dev., 436
F.2d 809, 818 (CA3))............................................................... 30
Smith v. Powdrill, 2013 WL 5786586, at *8 (C.D.Cal. Oct.
28, 2013;.................................................................................... 14
Tennessee v. Lane, 541 U.S. 509, 532-33 (2004).................. 31
Trafficante v. Metropolitan Life Ins. Co., 409 U.S. 205
(1972))....................................................................................... i
Trafficante v. Metropolitan Life Ins. Co., 409 U.S. 205, 209,
212 (1972)................................................................................ 27
Tsombandis v. W. Haven Fire Dep’t, 353 F.3d 565,578 (2d
Circ.2003)................................................................................. 18
Tsombandis v. W.Haven Fire Dep’t.,353 F.3d 565,578(2d
Circ.2003)................................................................................. 18
U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship, 513 U.S. 18,
26 (1994)................................................................................... 34
US Airways, Inc. V. Barnett(00-1250) 535 U.S. 391 (2002)
228 F. 3d 1105))........................................................................ 26
Wetzel v. Glen St. Andrew Living Cmty., LLC, 901 F.3d 856,
868 (7th Cir. 2018))................................................................ 10
Wilkerson v. Fujinaka Props., LP, No. 2:19-cv-02381 WBS
CKD (E.D. Cal. Apr. 1, 2020
20
Statutes

§§3603, 3604, 3605, or 3606 ....
§3604(b)..................
§3604(f)(2)..............
§3604(f) (3) (B...........
§3604(f)(3)(B).........
§3604(f)(3)(B);........
§3610(D ..................
§3617.....................
§3617/ §3604(b)/(f)(2)

9
8
4
........ 18, 20
iii, iv, 13, 33
14
20
8, 9
12

3
28 U.S.C. §1443(1),............................................................
42 U.S. Code §3601...........................................................
42 U.S. Code §3610...........................................................
42 U.S.C. §3617..................................................................
Delaware Uniform Common Interest Ownership Act
(“DUCIOA”)....................................................................
Revock...................................................................................
Title VII................................................................................

7
i

22
9
8
18
21

Other Authorities
https://lawyerscommittee.org/wpcontent/uploads/2015/08/The-Future-of-Fair-HousingNational-Commission-on-Fair-Housing-and-EqualOpportunity .pdf.................................................................... 23
httns://www.hud.gov/sites/dfiles/FHEO/documents/FHEO%
20Report%20Final%20-%20Web%20Version.pdf)
32
https ://www .hud. gov/sites/documents/80241C11FHEH. PD F
22
HXJD/DOJ Joint Statement “Reasonable Accommodations
21
under the FHA
Rules
§8.2.1......................
§8.2.1 “Declaration
14(d)(i),...................
Rule 14(d)(i),.........
Rule 15(iv).............
Rule(d)(iii)..............

1
25
25
25
24

Regulations
24 CFR §103.9......

22

li

1
STATEMENT
In June 2011, Petitioner (“Vester”7) requested reasonable
accommodations from Respondents, Henlopen Landing
Homeowners Association (“HLHA”) for an “exception” to
§8.2.1 “Declaration”8 through their Property Manager,
Premier Property and Pool Management, (“PPPM”) to
install a 6ft-fence enclosing their garage side-door to
protect and prevent their autistic 6 year-old son (“ZV”)—
who frequently eloped undetected from the home—from
drowning (again) in the adjacent community stormwaterponds and to provide a safe outdoor play area with access to
his outdoor toys in the garage; thereby preventing ZV from
learning how to operate the gates safety-latch. The purpose
of the fence is to keep ZV in a safe and secured area. ZV
also has asthma and an immunodeficiency disorder, so it is
important to maintain a clean home. Vesters garage opens
into the laundry room that they use as a “decontaminationarea.”
1st Reasonable Accommodation Requests
Vester initially verbally requested a 6ft solid fence to
enclose her entire property but was refused. Vester followed
HLHA’s Board Member, “J. Sydnor,” instructions when
completing her ARB application requesting variances for
the fence. Sydnor didn’t believe a variance was required for
the location of the fence since she and other owners, were
allowed to fence-in their garage side-doors. Because the
ARB‘applications are publicized and Vester received
negative feedback9 after disclosing ZVs autism on the

7 The Vesters and their four children, a biracial family (Russell is
African-American and JaKara is Caucasian), moved to HLHA in
January 2011 because of the proximity to the Sussex Autism
Consortium (school) their 6y/o autistic son (“ZV”) would attend.
8 “Fences,...shall be prohibited within the front-yard area of the lots and
in general shall not be closer to the front of the lot than one-half (1/2) of
the length of the side of the dwelling unit. The height of any such
fence...along the side of a unit shall not exceed 4ft (4’-0”).”
9 Vester received noise violations because neighbors were upset by the
noise “emanating from the property” when Vester’s children played

2

community webpage, Sydnor advised not to disclose ZV5s
diagnosis’s. Sydnor believed ZV’s multiple disability
related-needs were too complicated to understand and
advised Vester to state, ZV had “special-needs” and explain
her fears that ZV would drown in the adjacent ponds.
Sydnor believed Vester’s application would not be denied if
she requested to fence-in the garage side-door “to allow us
the ability to let our dog outside through the garage...so we
won’t be forced to track...mud thru our home” because she
received permission for the same reason; Vester agreed
because it addressed both of ZV’s needs for the enclosure.
(JX11/A47^]3) Vester’s application also requested
permission to install a small driveway extension. Sydnor
said she would forward Vester’s concerns to the rest of the
Board. Vester submitted ARB-Application and fee to PPPM.
7/1/11; Vester met with HLHA’s Architectural Review
Board (“ARB”) and discussed ZV’s disability-related-needs
for the fence height and location. Mitchell Crane, HLHA
Board-Member, was present at the meeting.
HLHA’s attorney asked Crane about the 7/1/11 meeting,
did Vester “ask for a fence extension based on a handicap?”
Crane replied, “[t]he request was based on a special-needs
child.(MCD-p.ll5^17-p.116^6) Crane testified that
Vester indicated she wanted to enclose the garage side-door
for the safety ofher son, “they wanted their child... to be
able to access the future fenced-in yard through the sidedoor(MCD:p.25^2-ljl6) Vester testified that the meeting
was very confrontational and felt like she had to defend her
right to live in HLHA. Though the meeting was meant to
discuss the fence request only, HLHA now wanted to
discuss the driveway, though it had already been verbally
approved since HLHA did not require approval for
driveway modifications. Vester said she was extending the

outside, Vester reached out on the community webpage and explained
her child has autism and encouraged people to talk with her instead of
calling in complaints, some committee members responded with
comments like, “...autism’s just an excuse for bad parenting...”

3

driveway to provide a safer place for her children to play
blacktop games. HLHA only expressed concerns that the
driveway might cause a tripping hazard because of the
“swales” between the properties and didn’t want it to look
like the extended driveway Vester referenced in her
request. (It had 2 different slopes; the extension sloped
towards their neighbor, and the existing driveway towards
the street.) HLHA requested a statement from the
contractor that the driveway-extension “slope would be
interior not exterior.”
HLHA’s Knowledge of Disability and Request
HLHA knew from 7/1/11, Vester’s accommodation request
was based upon ZVs needs, and conditioned their
“approval” to actually prevent the 6ft. fence. Crane—lawyer
and former judge—advises HLHA, “they could not deny a
reasonable-accommodation,” (MCD: p.95:f 1-11) and
testified that the fence location was denied, because he
thought the garage-door was inaccessible and “why should
the Board have to accommodate when Vester refused to
accommodate by letting the child go out the back door,
which was for adults only?”(MCD: p.101^13-21) Vester was
never given any explanation.
HLHA fabricated a defense for refusing reasonableaccommodations by exploiting Vester’s written request.
That defense however could be supported only if HLHA
could preserve the impression that it had no knowledge of
Vester’s true need for enclosing the garage side-door.
Denial of Requested Accommodation & Request For
Appeal; Intentional Discrimination
7/1/11; HLHA relayed their decision to PPPM.(A55)
7/2/11; Vester faxes 2nd driveway proposal, showing the
driveway “will grade all the way to the road” to PPPM.
7/7/11; PPPM told Vester her application was approved,
then emailed, “you are welcome to begin work on your
projects now” attaching HLHA’s conditional approval,
“After a presentation from the Vesters
regarding the needs of their child, the
Board decided to grant approval for a [6’]

4
fence. The case for hardship was established.
As a condition of approval the fence cannot
be more than % the way up the side of the
house which faces Lot 142.” (cannot enclose garage
side-door) (JX13/JX19)
The Court found, HLHA permitted 4ft.-fences in the same
location Vester sought—without a variance. Vester
believed, HLHA intentionally conditioned the approval so
she wouldn’t install the fence because they knew that one
without the other wouldn’t prevent ZV from accessing the
ponds and traffic, making the fence useless. Respondents
violated §3604(f)(2), by intentionally placing conditions on
the accommodation that other homeowners were afforded
but the Court found HLHA was just enforcing the
Declaration. Vester immediately responded to PPPM and
requested HLHA’s reason for denying the fence location,
requested information on appeal process, asked HLHA to
“reconsider their decision or at least justify’ why other
owners were permitted 4ft-fences in the same location, even
under the same reason, but she was not. She asked that
HLHA look again at the 2nd driveway proposal (previously
faxed to PPPM and attached in the email) because it
addressed their concerns regarding the appearance
(“conform to existing driveway”) and direction of the slope;
asking, “If by interior you mean that the grading is towards
the street and exterior is towards [neighbors’ lot.]” (JX13l#2-#3).
The Court considered this email a 2nd “pretextual-request”
and the reason Vester’s request for the appeal process was
denied. HLHA knew both the location and height were
tantamount in preventing ZV from accessing the ponds but
denied Vester an opportunity to appeal nor provided an
explanation to prove a non-discriminatory motive.
7/7/11; PPPM responds they will forward Vesters concerns
to HLHA and let Vester know the Board’s response. (JX15)
7/13/11; Vester requested a status update.

5
7/14/11; PPPM responded, “All has been approved.”10
Disparate Treatment/Retaliation/HLHA’s Refusal to
Engage in “Interactive-Process”
8/3/11; Contractor installs Vester’s driveway extension.
8/5/11; Vester discovered her pool keycard was deactivated.
8/8/11; Vester visits PPPM’s office and Jami Ferro tells
Vester her keycard was deactivated because her application
was not approved and she “performed unauthorized work.”
While in PPPM’s office, Vester re-emailed Ferro the 7/14/11
email-approval, attaching the referenced 2nd proposal,
PPPM also printed a “CCR report” showing PPPM “called
in approval” and no violation existed. The driveway wasn’t
listed, because, HLHA never required prior approval for
drive way s.(A88) The Court found HLHA has been
“inconsistent” with what it required for driveways, from
nothing prior to Vester’s request, to a contractorsstatement (after the lawsuit) but Vester alone—an
engineer-report. The record shows several owners have
modified their driveways without an application and were
not penalized. PPPM promised to reactivate Vesters
keycard, understanding the loss caused a hardship since
Vester used the pool in treating her son’s autism.(MO^p. 18)
8/8/11*8/10/11; Vester tried contacting PPPM/HLHA
several times and was actively ignored. She emailed PPPM
and individual Board-members proving she had received
approval and provided suggestions for resolve, referenced
the approval email/ongoing communication from PPPM,
and the attached 2nd driveway proposal and “CCR report.”
Frustrated, she said if the keycards were not reactivated by
the end of the day, she would be seeking the advice of an
attorney. (JX82/JX12) Respondents never replied nor asked
Vester for the referenced 2nd proposal.

10 Respondents aver they never sent the 7/14/11 “approval” email and
the 7/7/11 was altered to say, “you may begin work on your projects
now”; but produced the same 7/7/11 email and never provided an
alternative response to Vester’s 7/7/11 or 7/14/11 emails.

6
8/11/11; Vester filed an online Housing Discrimination
Complaint (Intake) with DDHR, alleging Respondents had
discriminated against her and her family based on race,
familial status, and disability.(JX22)
8/15/11; Vester attended HLHA’s Board meeting seeking
resolve for the driveway, keycards, and fence, HLHA told
her to shut-up, Vester announced filing a housing
discrimination complaint.
8/22/11; HLHA responds to Vester’s announcement, via
their attorney, demanding a “certificate of non-effect” for
the driveway, from a licensed engineer due in 10 days or a
lawsuit will be initiated. The Court found there were no
drainage concerns and HLHA had never required any other
homeowner to provide the opinion of an engineer on storm­
water drainage. (MO: p.24, p.25, p.26,)
DDHR Complaint; HLHA Lawsuit Against Vesters
8/11/11-11/22/11; HLHA is “unresponsive” to DDHR’s
invitations for “early-stage” conciliation so an official
complaint was filed 11/23/2011. (JX22-JX23)
12/21/11; Respondents receive Vester’s DDHR’s Complaint
and Questionnaire. (JX25) A Fact-Finding Conference
(“FFC”) was scheduled for 1/11/12 but HLHA claims they
are still working on DDHR’s Questionnaire so the FFC is
rescheduled. But Verifications for DDHR’s Questionnaire,
Motion to Dismiss, and Deed Enforcement Petition are all
signed and dated 12/31/11. (JX24)
1/13/12; HLHA responds to Questionnaire with a motion to
dismiss/request for attorney’s fees and threatens filing a
lawsuit against Vester to enforce deed restriction; threating
legal fees and injunctive-relief. (JX25:K 18) HLHA’s answers
“ARB application was denied.” (JX25:f 27:^7)
1/27/12; Vester obtains counsel, files objections to HLHA’s
dismissal motion and requests to amend the DDHR
complaint to make the nature of the discriminatory conduct
alleged clear. (JX83)
2/7/12; HLHA responds by filing deed enforcement action in
Delaware’s Court of Chancery; alleging Vester
“intentionally” violated HLHA’s Declaration because she
“knowingly” did not receive approval and claimed the

7

driveway required a “certificate of non-effect” from a
“licensed engineer,” “inappropriately planted trees,” and
“stored trashcans in violation of Declaration.” HLHA never
sent notice of the alleged violations prior to filing
enforcement action, nor responded to Vester’s inquiries
about what a “certificate of non-effect” entailed.
Court Fails to Rule on Subsequent Accommodation
Requests on the Record/Vester’s Counterclaims
2/17/12; Vester’s attorney, emails HLHA’s attorney
requesting the “scope of work” HLHA approved regarding
Vester’s accommodation request for the height and location
of the fence and states, “If I don’t hear from you by the end
of the month...I will assume that Vester’s request for a
reasonable accommodation...was and remains denied.”
(JX29) HLHA’s attorney replies, the email made it “clear”
Vesters “request was based upon the need for a reasonable
accommodation for [ZVs] disabilities” and would “request
[HLHA’s] position.” HLHA never responds nor approves
any part of the fence request. Vester’s lawyer breached
HLHA’s “defense” by sending an “official” reasonableaccommodations request. The request put on the record and
put HLHA on notice that both the height and location of the
fence were needed to accommodate ZVs disabilities.
2/29/12; DDHR’s FFC is held with HLHA (Crane) and
PPPM (Ferro) and their attorney. Vester and her attorney
personally serve Respondents the amended DDHR
complaint and the 2nd driveway-proposal. (A157-A158)
3/1/12: Petitioner emails Respondents confirming HLHA’s
statement that the 2nd driveway proposal satisfied HLHA’s
concerns regarding the driveway; asks what else does
HLHA require to get Vester’s keycards reinstated as it
caused a hardship in treating ZVs autism. HLHA admits
receiving the email but never responds. (JX30)
3/19/12; Vester removes the case to the District Court of
Delaware under 28 U.S.C. §1443(1), files Counterclaims
against HLHA for violations of Federal and State FHA
Laws; HLHA opposes removal.
4/17/12; HLHA responds to Vester’s counterclaims, defend
their refusal, stating; Vester was seeking “preferential

8

treatment not protection from discrimination.” (JX32: p.7:
H3-H4) For the 1st time, Vester is given a reason for HLHA’s
denial; HLHA believed the accommodation was
unnecessary and “demands strict proof thereof.” (JX31/32:
112-U14) HLHA admits they did not respond to Vester’s
2/17/2011 accommodation request because it was not
“necessary and appropriate.” (JX31/32: K29-^f30)
5/11/12; Vester provides HLHA with verification of ZVs
disability/related-needs for the requested fence from ZV5s
physician. 5/14/13; Court remands case back to Chancery
Court for lack of standing. (see app L)
5/24/12; at the request of HLHA’s attorney, Vester’s lawyer
submits a request directly to HLHA, for the fence as an
accommodation for ZVs autism and encloses the physician’s
verification. (JX33/JX34) HLHA never replied. HLHA never
requested any further information nor offered any
alternative. 5/24/18; Vester submits another request and
verification letter. (JX73/JX74) HLHA never responds.
8/24/12; HLHA admits all alleged violations are resolved
(JX48) but reopens the same charges in Chancery Court on
5/24/13; (DI-12) still seeking injunctive relief to remove the
driveway. Jerry Elliott, HLHA Board member, testified
that HLHA continued its lawsuit against Vester “because
we are just looking for some, some process to settle the
whole, this whole matter.” (JED:p.l00:1[20-p.l0l1jl3)
Proving HLHA’s intention of a retaliatory counterweight in
violation of §3617.
Court’s Initial Findings/HLHA’s Admissions
§3604(b)/(f)(2) & §3617 Claims
HLHA admits their policy and practice is to work with
homeowners to resolve alleged violations. The Court found
HLHA’s lawsuit against Vester was “contemplated in
October 2011” and though HLHA had not brought legal
action against anyone but Vester and “certainly not before
providing notice to the homeowner of a violation”—but
remained silent on Vester’s assertions that HLHA’s actions
violated the Delaware Uniform Common Interest
Ownership Act (“DUCIOA”) (privileges can only be
suspended for non-payment of dues) and HLHA’s own

9
Declaration; both require notice and opportunity to remedy
any alleged violation prior to fines and initiating
litigation—instead, found HLHA’s “Petition of the driveway
alteration was substantive and reasonable...the trees and
trashcans...were an attempt to lard the complaint...a hard
litigation tactic” (MO:p35) and without explanation on how
(or if) the Court applied the elements of §3617 claims; found
HLHA sued Vester because even though Vester “acted in
good-faith” and relied upon—HLHA’s agent’s—approval
when she installed the driveway-extension, HLHA’s
Declaration technically required explicit approval from
HLHA’s ARB,11 the Court initially reasoned, HLHA’s
litigation was not a response to Vester’s DDHR Complaint;
“not for reasons of discrimination or wrongful retaliation”
but “fulfilling its duty under the declaration.” (MO:p.35)
Never responding to Vester’s assertions that less harsh
treatment—afforded other homeowners12—would serve
HLHA’s legitimate purpose. HLHA admitted to treating
Vester more harshly because no other homeowner had
disregarded PPPM’s stop work order. However, Jeff Rice
(PPPM) testified he never even spoke to Vester.
Retaliation Claims §3617/Case Law Conflicts
The FHA makes it unlawful "to coerce, intimidate, threaten
or interfere with any person in the exercise or enjoyment of,
or on account of his having exercised or enjoyed...any right
granted or protected by §§3603, 3604, 3605, or 3606 of this
title." (42 U.S.C. §3617) The Courts are split on whether
§3617 requires a showing of “intentional discrimination,”
whether in whole or part, motivated the actions of the
defendant; some finding discriminatory intent is a “pivotal

11 The Court’s finding is overreaching and non-sensical at best; HLHA
admitted (DI-161: p. 14:143-44) and PPPM testified, (JFT: p.lO-p.ll,
p.47:16-11) HLHA/ARB never directly communicated with owners; all
communication went through the property-manager, just like most
HOA’s. Ignored the record; PPPM repeatedly mishandled ARB
applications and no other owner was punished.
12 No action, a letter, ask Vester or Contractor for statement, just look
at the driveway slope.

10
element.” “To prevail on a §3617 claim, the Plaintiff must
demonstrate: that (1) she is a protected individual under
the FHA, (2) she was engaged in the exercise or enjoyment
of her fair housing rights, (3) Defendant coerced,
threatened, intimidated, or interfered with the plaintiff on
account of her protected activity under the FHA, and (4) the
defendants were motivated by an intent to discriminate.”
CBloch u. Frischholz, 587 F.3d 771, 783 (7th Cir. 2009))
In “Wetzel”, defendants asserted Wetzel's retaliation claim
failed because it lacked an allegation that the defendants
were motivated by discriminatory animus. The lower court
agreed with the defendants' arguments regarding the
intentional discrimination claims and dismissed the
retaliation claims without further discussion. Wetzel’s
Appeal Court found, “if we were to read the FHA's anti­
retaliation provision to require that a plaintiff allege
discriminatory animus, it would be an anomaly.” “Like all
anti-retaliation provisions, it provides protections not
because of who people are, but because of what they do”
therefore, §3617 claims are determined by the same 3
elements as other anti-retaliation provisions. (Wetzel v.
Glen St. Andrew Living Cmty., LLC, 901 F.3d 856, 868 (7th
Cir. 2018))
Some Courts state; “To prevail on a §3617 retaliation
claim, [Vester] must demonstrate that (1) she engaged in a
protected activity; [sought reasonable accommodations and
filed DDHR Complaint/FHA counterclaims] (2)[HLHA]
subjected [Vester] to an adverse action (3) a causal link
exists between the protected activity and the adverse
action;” [HLHA’s unfounded concerns regarding driveway/
demanding contractors plan—after Vester requested
_
accommodations for the safety-fence when other homeowners
didn’t need ARB approval for driveways; escalated to
demanding an engineer-report—7 days after Vester
announce she filed DDHR-Complaint; escalating to
initiation of litigation against Vester—10 days after Vester
obtained an Attorney thereby preventing HLHA’s dismissal
of the DDHR-Complaint; continued keycard deactivation
and continued lawsuit for deed enforcement—after Vester

11
provided engineer-report, refused to dismiss her FHA
jclaims, persisted with accommodation requests.] (Lloyd v,
Presby's Inspired Life, 251 F. Supp. 3d 891, 904(E.D. Pa.
2017))13 Finding discriminatory animus is determined;
“Where the time period between the protected activity and
the alleged retaliation is unusually close, it may be
sufficient on its own to Create an inference of causation. If
the timing is not "unusually suggestive," however, courts
then evaluate whether "the proffered evidence, looked at as
a whole, may suffice to raise the inference."” (Id.14)
Haws v. Norman, No. 2:15-cv-00422-EJF (D. Utah Sep. 20,
2017) addresses retaliation claims following requests for
reasonable accommodations. “Requiring the plaintiff to
show an intent to discriminate based on disability would
narrow the scope of the statute considerably with no basis
in the statutory language” since“[HLHA] could well wish to
retaliate for such advocacy for reasons other than
discrimination...to discourage others from similarly
advocating for their perceived rights in the future or
because the advocacy is bothersome. These motives do not
reflect an intent to discriminate based on disability but do
violate the FHA if acted upon.” “Retaliatory actions include
any action that "could well dissuade a reasonable [plaintiff]
from making or supporting a charge of discrimination.”
(Id15) Even if this Court were to determine that intentional
discrimination/discriminatory animus is required under
§3617, “the requirement of a causal connection between the
request for accommodation [protected act] and the
purported prohibited retaliation adequately addresses
intent; that is, of whether the defendant acted the way he

13 “Citing *” (Madison v. Phila. Hous. Auth., No. 09-3400, 2010 WL
2572952 (E.D. Pa. June 23, 2010))(*WaZ/eer u. City of Lakewood, 272
F.3d 1114, 1128 (9th Cir. 2001))
14 *Farrell v. Planters Lifesauers Co., 206 F.3d 271, 283-84 (3d Cir.
2000) at 280 (*Kachmar v. SunGard Data Sys., Inc., 109 F.3d 173, 177
(3d Cir. 1997)).
15 * (Burlington N. & Santa Fe R. Co. v. White) 548 U.S. 53, 57 (2006)

12
did as a response to the plaintiffs protected activity or for
some other reason.” (‘Haws”) Under either framework, once
[Vester] establishes a prima facie case of retaliation,
[HLHA] has the burden of showing it had a legitimate nondiscriminatory reason for the adverse action; If it can do so,
the burden shifts back to [Vester] to prove pretext, which
requires a showing that the proffered nondiscriminatory
reason is unworthy of beliefdacks veracity because lessharsh actions would serve “legitimate purpose.”
Court Contradicts Initial Findings; Factual Findings
Support Legal Findings of §3617/ §3604(b)/(f)(2)
Violations
The Court initially and improperly found Vester’s claims
failed because, “Once Vester threatened legal action,
[HLHA] insisted on a professional engineer’s report
on drainage, in compliance with the Declaration but not
consistent with the prior practice with other homeowners”
(MO:p. 26); In other words, the Court failed to properly
apply legal analysis of §3617 claims because the Court
believed HLHA was permitted to enforce the Declaration,
so HLHA could not act “for reasons of discrimination.” At
Oral Argument on Vester’s motion for reargument and
HLHA’s mootness fees for the deed enforcement action, the
Court contradicts its initial findings; “The matter devolved
into litigation largely over the fence issue...then [HLHA]
demanding something that hadn’t been demanded of
other homeowners...an engineer report... was part of a
litigation tactic. It doesn’t seem to me that it was
required, because it was not required of anyone else.” (OA:
p.17: K5-1J13) “Once this was in litigation”, (Vester’s
DDHR complaint), [HLHA] made “makeweight claims”
against Vester. “The litigation over the driveway, as I’ve
said, was in part a result of the other litigation in this
matter...the engineer report...did not benefit [HLHA]...
there was not a drainage problem...Vesters acted in goodfaith.” “I think this could have been settled by simply
writing a letter to the Vesters...” “I am convinced could
have been achieved without litigation.” (OA:p.l71fl7-

13
p. 19^|24) The factual findings support finding HLHA
disparately treated Vester, acted with discriminatory
animus, as a result of Vester filing a DDHR claim against
HLHA. The Court’s overreach and legal errors vindicated
HLHA’s claims and aided in depriving Vesters of their
rights. The Courts blatant error begs remedy and justice.
Reasonable Accommodation Claims §3604(f)(3)(B)
“Discrimination against the handicapped was perceived by
Congress to be most often the product, not of invidious
animus, but rather of thoughtlessness and indifference of
benign neglect” (Saville v. Quaker Hill Place, 531 A.2d 201,
206 (Del. 1987)) It is long standing, under every civil rights
law, in every reasonable accommodation claim, that a
request can be in any form and at any time. This applies
only in theory. If the request is not granted, the disabled
are without a record of the request and will likely fail in
adjudicating their rights. Because engaging in an
interactive-process is not required of the provider, a burden
is placed upon the disabled to anticipate a denial and create
an admissible record just for a 50/50 chance of adjudicating
their right to the same housing access others receive
automatically. There continues to be conflict among the
courts, housing providers and the disabled on the required
content of an accommodation request; resulting in costs to
the parties and courts and causes delay/denial of necessary
accommodations granting equal housing access to the
disabled. Often defendants are awarded summary
judgement on §3604(f)(3)(B) claims, because Courts find
plaintiffs prevented defendants from fully considering the
request because the plaintiff failed to provide defendant the
requested additional verification of the disability-relatedneeds believing the defendant is not entitled to private and
sensitive medical information. Courts fail to consider, often
the information sought is sensitive and the disabled are not
guaranteed protection of their private information. And like
here, the requestor may not wish for their neighbors to
have information subjecting the family to harassment and
judgement. Courts disagree on how much information is too
much or too little and the statute and regulations are

14
silent. Often those with invisible disabilities were prefer
they stay invisible. (seeApp Mease ex.)
Court’s Factual Findings Contradict Findings of Law
“A refusal occurs when the disabled is 1st denied
reasonable accommodations, irrespective of the remedies
granted in subsequent proceedings.’’^Reuock v. Cowpet Bay
W. Condo. Ass'n, 853 F.3d 96, 111 (3d Cir. 2017))*6 Even
though the Court failed to rule on Vester’s subsequent
requests, the Court’s factual-findings support the legalfinding; HLHA violated §3604(f)(3)(B); 1) KV is disabled^
HLHA admitted 2) HLHA knew of KV5s disability; HLHA
“was aware of [ZV’s] special-needs, because Vester requested
a variance [for fence-height] on the same grounds’’ (MO:p.3Q
~p.31) 3) Vester requested a reasonable accommodation;
“HLHA approved at least one home’s garage side-door
enclosure” (MO:p. 10-p. 11) and 4) the requested
accommodation is necessary to afford Vesters equal
opportunity to use and enjoy their dwelling; fZV] “...is an
elopement risk due to his autism,” (MO:p.29-p.30) the fence
location variance, like the height exception was intended to
accommodate [ZV’s] special-needs by allowing him access to
[the backyard through the garage. ” (MO: p. 8) 5)HLHA
refused their request; HLHA admitted/‘Vesters still seek
an accommodation for their child’s autism in the location of
the fence, [HLHA] should act on this request promptly,
ibased on Vesters’ true reason for applying for the variance,
as an accommodation for their child’s disability, as well as
the information submitted by Vester since the varianed
was denied.”(MO. p.36) “Nothing herein relieves [HLHA]
from addressing Vesters current fence variance request...”
(MO:p.30) “Even though refusal may be accompanied by
other acts, refusal alone is violative of §3604(f)(3)(B)).”17 “If
an accommodation is required under the FHA, the reason
for the denial is irrelevant in establishing that a violation

16 Quoting: Groome Res. Ltd. , 234 F.3d at 199 (quoting Bryant Woods
Inn, Inc. v. Howard Cty. , 124 F.3d 597. 602 (4th Cir. 1997)
” *Smith v. Powdrill, 2013 WL 5786586, at *8 (C.D.Cal. Oct. 28, 2013)

15
occurred.” {Castellano v. Access Premier Realty, Inc., 181 F.
Supp. 3d 798, 808 (E.D. Cal. 2016))18 Like disparate-impact
claims, the liability for refusing to grant reasonableaccommodations “refers to the consequences of actions and
not just the mindset of actors” {Tex. Dep't of Hous. & Cmty.
Affairs v. Inclusive Cmtys. Project, Inc., 135 S. Ct. 2507
(2015)) The Court ignored the most essential element to
§3604(f)(3)(B) claims; HLHA actively and intentionally
refused reasonable and necessary accommodations that
would protect a disabled child and provide the family equal
use and enjoyment of their home for 8 years. Instead, the
Court blamed the victim for not making a “formal” request.
(OA: p.4: 1fl9-p.5 1J22)
The Court Need Not Determine if Vester Failed to
Request an Accommodation
Even after the Court found in HLHA’s favor, Respondents
argue, the Court wasn’t required “to make a decision on
whether or not, if a subsequent request had come in,
[HLHA] could consider the prior reasons pretextual...in
consideration of a future re quest... I don’t think you ever
had to reach that.” (OA: p.12:17-1(18) HLHA continues to
argue that the subsequent requests should be excluded
from the record. (OA: p.13:118-p.l4: T[7) (DI-183:1J5-H7)
Even if the subsequent requests were excluded, you can’t
unring a bell, the subsequent requests show what
information HLHA had before it when it continued to
refuse the requested accommodation. Furthermore, the
Court already found, 3 request and refusals on the record;
“The limited record in this case indicates that
[Vesters] were denied their initial request for
the extension of their fence on 7/7/2011. A
renewed request was made after the initiation
of this litigation. As alleged in [Vesters’]
counterclaim, this request was made to HLHA's

18 *Rodriguez v. Morgan, 2012 WL 253867, at *4 (C.D.Cal. Jan. 26,
2012).

16
attorney on 2/17/2012, and it made clear that the
failure to approve the requested accommodation
by the end ofFebruary would be considered a denial.
No response allegedly was made to this request or
to another request for a fence extension that was
made on 5/24/2012. (Henlopen Landing Homeowners
Ass'n, Inc. v. Vester, C.A. No. 7229'MA, at *14-15
(Del. Ch. Feb. 25, 2015)) “[Tjhree separate requests
for an extension of the fence, each request allegedly
for an exception to the community's fence restrictions
as a reasonable accommodation for a disabled child.
The 1st denial occurred on 7/7/2011, the 2nd denial
constructively occurred on 2/29/2012, and it is
unclear when the 3rd denial constructively occurred
since there was no specific deadline given. However,
more than eight months had passed between the first
denial and [Vesters] second request. The first denial
was sufficientlypermanent to trigger a reasonable
person to protect his rights.” (Id. at *15)
The 1st denial was enough because it does not matter why
HLHA denied the requested accommodation when the
requested accommodation is reasonable and necessary to
afford a disabled person equal use and enjoyment of a
dwelling. The Court found the requested accommodation
reasonable and necessary it need not overreach and find
Vester failed to make a request after 8 years! Court cannot
fault Vester because HLHA sat on its hands and failed to
seek further information to assuage doubts of necessity,
Vester’s subsequent requests are part of the complaint and
should be adjudicated even if the Court found the initial
request was insufficient.
HLHA attempted to prove Vester an unreliable witness as
a defense for intentionally refusing blatantly reasonable
and necessary accommodations after their intentional
avoidance of an “interactive process” failed upon the receipt
of subsequent accommodation requests. Even though
HLHA admits to receiving and not responding to
subsequent requests, admits they made no inquiry; they
object to the admission of the requests/verifications

17
subsequent to—HLHA’s failure to engage in an interactive
dialogue—under Rule 408 “protected settlementnegotiations.” (DI-161: p.27:12-p.35:1fl0) (DM81, DM86:
fn3) The Court deemed all exhibits admitted (See App III-A)
and acknowledges the subsequent requests and
verifications but without explanation, limits its review of
§3604(£)(3)(B) claims to the 6/27/11 request (DT95: Counts
#11-18) and never addresses the subsequent requests. (DT
95; Counts 31-37)
Other Courts have found statements made during
mediation or after claims have been filed with the courts
are excluded, however in these cases, the disabled failed to
engage in an interactive process prior to filing suit. (Sun
Harbor Homeowners'Ass'n, Inc. v. Bonura, 95 So. 3d 262
(Fla. Dist. Ct. App. 2012) (see app M) The Court recognized
HLHA’s insinuations and emphasized that Vester’s initial
written request was “pretextual” and found Vester’s
testimony credible; (MO: p.8, p.9, p.10-11, p.21, p.28, p.30,
p.3l) “the fence location variance, like the height exception
was intended to accommodate [ZVs] special-needs by
allowing him access to the backyard through the garage!
(MO: p.8) But did not address HLHA’s liability for
stonewalling the interactive process that would have
allowed Vester an opportunity to make ZVs needs clear and
present the 2nd driveway proposal.
The Court Ignored Established Precedent and
Provided a Defense Never Advanced by Respondents
Ruling is “Inconsistent With the Policy of the Law”
(DI-148: p.14: f 21-f 22)
“Due to the paucity of case law interpreting DFHA
provisions, Delaware courts often look for guidance to
federal decisions construing identical or parallel provisions
of the FHAA.” (Walker v. City of Wilmington, C.A. No. 8607VCP, at *17 n.36 (Del. Ch. Sep. 5, 2014))*9 §3604(f)(3)(B)

19 * Samuelson v. Mid-Atl. Realty Co., 947 F. Sudp. 756. 759 & n.3
(D. Del. 1996) (Delaware Supreme Court would employ the same

18
claims are not dependent upon a “formal” request; instead,
one must prove the accommodation is reasonable and
necessary to afford a disabled person equal use and
enjoyment of a dwelling and was refused. The 3rd Circuit
explicitly excludes a “freestanding-request” as a prima facia
element; because “...it is a refusal, not a request that is in
the text of §3604(f)(3)(B).” (Revock) To satisfy the requestelement “[HLHA] must have had an idea of what
accommodation [Vester] sought prior to [HLHA] incurring
liability for refusing it ”(Id.20) For example, if she asked
HLHA for a fence around her property, then took HLHA to
Court for refusing to fence in the ponds, Vester’s claims
would most likely fail since HLHA had not been given an
opportunity to make an informed decision on the request
before incurring liability for refusing. Even though 11th
Circuit’s framework of §3604(f)(3)(B) claims require “(2) he
requested a reasonable accommodation;”21 the 11th Circuit
defines a “request” as “any circumstances sufficient to
cause [HLHA] to make appropriate inquiries about the
possible need for an accommodation.’’(Revock 22) If the Court
used the framework requiring one must “request a
reasonable accommodation” the Court must also consider
HLHA’s failure “to make appropriate inquiries” before
denying Vester’s request. HLHA cannot simply refuse a
reasonable request because it assumes the accommodation
is unnecessary. The Court’s findings made it clear that
ignoring reasonable and necessary accommodation requests
and intentionally treating a protected class member
disparately is permissible if an HOA is simply enforcing the
Declaration; setting contradictory precedent in Delaware.

reasoning as federal courts in interpreting the FHAA and therefore
applying the analysis of an analogous FHAA issues).
20 *”Tsombandis v. W.Haven Fire Dep’t.,353 F.3d 565,578(2d Circ.2003)”
21 * Bhogaita v. Altamonte Heights Condo. Assn. Inc., No. 6:ll-cv-1637Orl-31DAB (M.D. Fla. Jan. 3, 2012)))
22 *“Hunt v. Aimco Props., L.P.„ 814 F.3d at 1226 (11th Cir. 2016)”
*“Conneen v. MBNA Am. Bank, N.A., 334 F.3d 318. 332 (3d Cir.2003)

19
Court Must Consider the Entirety of the Case When
Determining Reasonable Accommodation Claims
In Douglas v. Kriegsfeld Corp., 884 A.2d 1109, 1121-22
(D.C. 2005), the Court overturned the trial court's ruling
finding the tenant's accommodation request for was vague
and untimely because she failed to detail the desired
accommodation until months had passed after she 1st
requested an accommodation. The Court recognized, “cases
involving requests for "reasonable accommodation" are
highly fact-specific, requiring case-by-case determination,
and that circumstances occurring between the request
for accommodation and the eventual trial can affect
the result'’ and found, “principal responsibility for any
delay in pinning down the details of [Vester’s] request, and
in working out [an accommodation], lay with [HLHA].”(M,)
HLHA is Liable for Violating §3604(f)(3)(B) Because
HLHA Never Requested Further Information,
Ignored Appeal Requests and Subsequent
Reasonable Accommodation Requests
“Although neither statutory language in the FHA nor its
implementing regulations expressly require an "interactiveprocess" for resolving requests for accommodations, several
courts have indicated that the Act's statutory scheme
inherently imposes such a requirement.” (“Douglas”) The
Court found, HLHA knew Vester requested variances to
install a 6ft.-fence based upon ZVs “special-needs,” at that
point, if HLHA believed Vester’s need to access the yard
through the garage and to “prevent dirt from coming into
the home” was unrelated to ZVs disabilities, HLHA must
request additional information before denying any
reasonable request. HLHA’s denial of Vester's request
based on their lack of knowledge of the extent of his autism
is simply a ruse to avoid the penalty for violating the FHA.
It is telling, HLHA approved the height request based upon
Vester’s statements alone yet denied the location request
even after it had received verification from ZVs doctor. The
Court must presume, had HLHA initially requested further
information, Vester would have provided the substantial

20
documentation she provided after the request was denied.
“If a landlord is skeptical of a tenant's alleged disability or
the landlord's ability to provide an accommodation, it is
incumbent upon the landlord to request documentation or
open a dialogue.”{Jankowski Lee Associates v. Cisneros, 91
F.3d 891, 895 (7th Cir. 1996)) ““Jankowski” did not fashion
an independent basis for liability out of the landlords'
failure to inquire. Instead, the decision rested on a violation
of §3604(f)(3)(B).”“[HLHA] had a duty to make a reasonable
accommodation. They did not make a reasonable
accommodation, so they violated the FHA.” The 1st, 3rd, 6th
7th, and 9th circuit’s find that the interactive process
matters only if it sheds light on whether the elements of the
statutory claim have been met. (Howard v. HMK Holdings,
No. 18-55923 (9th Cir. Feb. 23, 2021)
Breakdown in Interactive Process Points to Liability
in a Reasonable Accommodation Refusal
Once a request for accommodation is made, “[HLHA] must
at least attempt to open a dialogue with [Vester] to explore
accommodation options in good-faith before saying no.”
(“Douglas”) Some Courts find housing-providers “shortcircuit the interactive process” by not accommodating
owner’s repeated requests and are liable under the FHA for
refusing reasonable accommodations. (Astralis Condo.
Assn. v. Sec'y, U.S. Dept. ofHous. & Urban Dev., 620 F.3d
62, 68 (1st Cir. 2010) “even if the FHA imposes no
affirmative obligation, evidence of a landlord engaging in
an interactive process with a tenant is relevant to the
refusal inquiry.” (Wilkerson v. Fujinaka Props., LP, No.
2:19-cv-02381 WBS CKD (E.D. Cal. Apr. 1, 2020))
Even if Vester’s first requests failed to make TAPs needs
clear, the duty to provide reasonable accommodation is a
continuing one, and not exhausted by one effort.
(Bultemeyer v. Fort Wayne Community Sch., 100 F.3d 1281,
1285 (7th Cir. 1996)) Congress never intended for housingdiscrimination victims to file separate lawsuits for each and
every accommodation denial; §3610(D): “Complaints...may
be reasonably and fairly amended at any time.”

21
HUD/DOJ do not require housing providers to be “mindreaders” when presented with accommodation requests, so
“in response to a request for a reasonable accommodation,
housing-providers may request reliable disability-related
information that (1) is necessary to verify that the person
meets the Act’s definition of disability...(2) describes the
needed accommodation, and (3) shows the relationship
between the person’s disability and the need for the
requested accommodation...[this] can usually be provided by
the individual [herself].” (HUD/DOJ Joint Statement
“Reasonable Accommodations under the FHA)
Though FHA’s statutes and Regulations pose no direct
liability for failing to engage in an “interactive-process” as
in Title VII claims, HUD/DOJ encourages “[a]n interactive
process in which the housing-provider and the requester
discuss the requester's disability-related-need for the
requested accommodation and possible alternative
accommodations” because it “is helpful to all concerned
because it often results in an effective accommodation for
the requester that does not pose an undue financial and
administrative burden for the provider.” There is no
demand for an interactive process because the statute is so
clear; refusing a reasonable and necessary
accommodations—no matter the reason—is a
discriminatory act in violation of the FHA and providers
will be held liable. But what happens when Courts fail to
uphold the statute and blame victims of discrimination for
not making a “good-enough” request for an otherwise,
reasonable accommodation? This is just like blaming a
woman for being raped because her skirt is too short.
HUD’s/DDHR’s Mandatory Conciliation Efforts
The Court’s decision undermines the intent and purpose of
the FHA and punishes aggrieved persons for seeking out
the enforcement powers of HUD by refusing to consider the
subsequent accommodation requests that were submitted
after the filing of Vester’s HUD complaint because they
were, as the Court found, “attempts to settle the matter or
resolve issues” as part of FHA’s required conciliatory

22

process. 42 U.S. Code §3610; “During the period beginning
with the filing of such complaint and ending with the fifing
of a charge or a dismissal by the Secretary, the Secretary
shall, to the extent feasible, engage in conciliation with
respect to such complaint.” The Court’s decision deprives
the disabled of their right to equal use and enjoyment of a
dwelling by refusing to allow reasonable and necessary
accommodation requests to be “consider[ed] as a FHA
request for an accommodation.” The Court has created a
novel duty and inappropriate burden upon the disabled to
make a “formal” accommodation request and denies the
disabled the opportunity to make their needs clear. It
illegally takes the power invested in HUD by Congress to
enforce the FHA through attempting mandatory
conciliatory actions. Aggrieved parties are left with no way
to request an accommodation and there is no incentive for
the housing provider to make the accommodation.
It has created a novel affirmative defense for housing
providers; just ignore the request. And if a HUD complaint
is filed that requires talking out the points of contention,
simply object to the admission of subsequent requests and
call them “protected settlement negotiations.” 2324
Interactive Process Liability
The FHA states “it is unlawful”...to refuse to make
reasonable accommodation...when such accommodations
may be necessary to afford the disabled equal opportunity
to use and enjoy a dwelling. The FHA does not say; fair and
equal housing is only available if you can overcome judicial
obstacles and prevail in court. If housing-providers were
held liable for not engaging in an interactive process before
denying the requested accommodation, they would be
unable to simply ignore a request. If the accommodation

23 https://www.hud.gov/sites/documents/8024lCllFHEH.PDF
24 Conciliation: attempted resolution of issues raised by a complaint, or
by the investigation of a complaint, through informal negotiations
involving the aggrieved person, the respondent, and the Assistant
Secretary.(24 CFR §103.9)

23

was still refused, there would be a clear record which would
assist in expediting adjudication. Holding a provider
accountable to engage in “a process of communication for
the purpose of determining a reasonable accommodation for
the disability” would enable the parties to come to an
agreement that would satisfy both parties in providing
equal use and enjoyment for the disabled and preventing
expensive and damaging litigation for the provider.
When a housing-provider makes no attempt to
understand a requestor’s inquiries, and there is no
culpability imposed upon a housing-provider for failing to
assist in providing a reasonable accommodation where is
the incentive for a housing-provider to provide the
necessary accommodations? The disabled must file
complaints/lawsuits just so they might be awarded what
everyone else receives innately. How is that equitable and
fair? Housing-providers rely on the fact pro se complaints
are easily dismissed on legal technicalities. If the disabled
are in a position to navigate the complicated process of
filing a HUD Complaint, they often cannot wait 497 days25
or more for HUD to complete its investigation. Even if a
charge is issued, the disabled will be forced to disclose
personal, private, embarrassing and often stigmatized
disability medical information. Made even more
traumatizing when you are forced to publicly disclose this
information to your neighbors, neighbors who may have
already harassed them. And even still, there is no
guarantee. DDHR had not even started its official
investigation when Vester voluntarily dismissed her HUD
complaint on 2/2/15; more than 3 years after she filed her
complaint.
The Court didn’t give weight to the extraordinary
efforts and sacrifices Vester’s entire family made just to
keep ZV alive and safe, never acknowledging that this case

25 https://lawyerscommittee.org/wp-content/uploads/2015/08/TheFuture-of-Fair-Housing-National-Commission-on-Fair-Housing-andEqual-Opportunity.pdf

24
could have looked vastly different if ZV had died. (Sackman
v. Balfour Beatty Cmtys., LLC, CV 113-066 (S.D. Ga. Sep. 8,
2014))
Delaware Supreme Court Dismisses Appeal for
Inadvertently Exceeding Word Count
Vester was denied the opportunity to have the lower court’s
decision reviewed because Delaware’s Supreme Court found
Vester,—a inexperienced pro se party—exceeded the
10,000-word limit imposed by Rule 14(d)(i). The Court
never revealed their wordcount findings so Vester must
assume the Court was correct. Vester submitted 4 Briefs,
each stricken for exceeding the wordcount. Though “proper­
spacing” errors existed since the 1st submission, the error
was not brought to Vester’s attention until after the 3rd
Brief. 1st Brief: Vester contacted the Court Clerk because
her computer died, and she only had an emailed copy of the
rough draft to submit before the deadhne. The Clerk
recommended submitting what she had, and she would be
able to resubmit a handwritten brief of 35 pages if she had
no access to a word processer. Rule(d)(iii) 2nd Brief: The
pandemic struck. Vester, a single mom to 3 school-aged
children—1 with an immunodeficiency disorder,
malabsorption disorder, and autism—is overwhelmed with
keeping her children safe, fed and schooled and has no
support. (Vester’s family still has not left their home nor
allowed visitors.) The family has limited resources and is
sharing 1 computer for everything, but because the Rules
state the 35-page limitation is only for those “without
access to a word processing program,” Vester
submitted her 2nd brief using the 10,000-word limit rule.
This brief was stricken at Respondents request because
they found the word count was 18,604. Vester replied to
Respondents Letter to the Clerk stating she had relied
upon the wordcount in Word and included screenshots.
Vester asked “if the Court should find [she] erred in relying
upon Word’s wordcount and finds the Brief over the word
limit, [she] respectfully requests leave from the Court to
allow the submitted brief in consideration of the
extraordinary long nature...” of the case. The Court did not

25
respond to Vester’s informal extension motion but found
Vester’s inexperience caused an inadvertent failure to
check the footnotes box which caused the miscalculation.
The Court gave less than 4-days to resubmit a “Word
Version” Brief and “Certificate of Compliance.” Rule 15(iv)
prevented Vester from submitting a formal Motion to
exceed wordcount because Motions must be submitted 5
days before due-date, or the appeal would be dismissed
automatically. Vester timely submitted her 3rd Brief,
reduces her 76 footnotes to 28. Respondents motioned for
dismissal because they found the Brief had 11,864 words
(down from 18,604) because “...spacing after certain
punctuation caused the inaccurate wordcount...” Vester
denied any “spacing errors” because she was not a typist or
proficient with Word, she was unaware of any rule that
required a space after punctuation or that the omission
would distort Microsoft’s wordcount. In hindsight, the
spacing errors existed in earlier submissions but were not
addressed by the Court. Vester focused on submitting the
Brief on time, complying with the Courts Rules and
followed Rule 14(d)(i), “the person...may rely on the
wordcount of the word processing program used to
prepare the brief.” Despite the wordcount being within
the amount the Clerk could approve without a ruling from
the Court, the Court ignored Vester’s informal request for
leave to extend the wordcount, struck the brief and
illustrated the “proper-spacing” that occurs after commas
and periods and ordered Vester to resubmit a brief in less
than 8 days. 4th Brief: The Clerk struck the brief for
exceeding the word count without further explanation or
identifying the errors and issued show cause for “repeatedly
violating the rule.” Show Cause: Vester explained that her
“repeated violations” were unintentional and were a result
of her inexperience with Word/legal briefings, incompetent
typing abilities, COVID, and her son’s immune deficiency
prevented her from accessing resources usually available to
pro se parties and was unable to have her brief peerreviewed. She contested “repeatedly” violating the rule
because spacing errors had always existed but were not

26

brought to her attention prior to her 4th brief and she
addressed each error when she was made aware of the
mistakes to the best of her ability. She didn’t think her
brief exceeded the word limits because she used spell check
and spaced after every punctuation as the court instructed.
The Court dismissed Vester’s appeal because she had 3
opportunities to comply with Rule 14 but failed and
dismissed her motion to exceed the wordcount as moot.
Vester received the dismissal which—for the 1st time—
identified the brief as 62-pages and confirmed with the
Clerk that the wrong brief was submitted to the Court.
Vester filed a motion for reargument based on the new
findings and explained, because of COVTD’s health concerns
and the short time allowed to resubmit, Vester had to
submit her filings through FSXpress of which she was
unfamiliar. The Court sent Vester filings through USPS
knowing she had no access to FSX case filings because (per
FSX), the Court had not added Vester as a party to the
case, so she had no idea the wrong brief was filed with the
Court, until the Order alerted her of the wrong page count.
The “correct brief’ was 58-pages. The Court denied the
motion for reargument without explanation.
REASONS FOR GRANTING THE PETITION
This Court should grant certiorari because of the
importance of the constitutional questions presented.
This Court knows “that legal lapses and violations occur,
and especially so when they have no consequence.”(SC
Mach Mining LLC v. EEOC) This occurs in Courts as well,
appellate Courts are the checks and balance meant to
rectify the wrongs that have occurred in the lower, less
experienced Courts. But they are useless if the bar is too
high to hurdle. The Court strayed from this Court’s
precedent “discrimination includes not making reasonable
accommodations to the known physical and mental
limitations...unless [the housing provider] can demonstrate
that the accommodation would impose an undue hardship.”
(US Airways, Inc. V. Barnett(00-1250) 535 U.S. 391 (2002)
228 F. 3d 1105)) regardless of the non-existence of state case
law, the court had an obligation of due diligence and

27

consider the case law before it and make a uniform ruling
but failed to do so. The court failed to hold Vester’s appeal
Brief “to less stringent standards than formal pleadings
drafted by lawyers” and deprived her the right to be heard
and remedy error in the name of justice (Haines v. Kerner,
404 U.S. 519, 520, 92 S.Ct. 594, 30 L.Ed.2d 652 (1972)) The
State Courts disregarded precedent set by this Court the
United States Supreme Court must intervene.
The State Court’s Unsupported and Contradictory
Decision Diverts So Far from This Court’s/Circuit
Court’s Decisions/ Intent/Purpose of the FHA; It
Demands This Court’s Review or Risk Setting
Precedent in Delaware, Dividing the Courts, Denying
Rights to the Disabled
The FHA does not require accommodations that are not
related to a person’s disability, but when an accommodation
is reasonable and necessary to afford equal access to
housing, the housing-provider must grant the
accommodation. But this seemingly simple concept has
produced a muddled, often self-contradictory body of case
law. Disability statutes provide little guidance to the judges
and this Court’s precedent recognizing the FHA's
"broad and inclusive"26 compass has allowed Courts a
"generous construction" resulting in a lack of uniformity
leading to confusion, inconsistent enforcement, and
deprivation of rights.
The Delaware Court of Chancery has a national reputation
in the business community and is responsible for
developing corporate case-law. The Court essentially
affirmed that an HOA’s Declaration supplants the U.S.
Constitution. The Courts ruling invites HOA’s to blatantly
ignore unsavory accommodation requests, and/or amend
their Declarations to keep the disabled out. This is
troubling when more than 53% of Owner occupied
households are within HOA’s and will increase as most

26 (City of Edmonds v. Oxford House, Inc., 514 U.S. 725, 731 (1995))
(Trafficante v. Metropolitan Life Ins. Co., 409 U.S. 205, 209, 212 (1972))

28

local governments require developers to form HOA’s to
unburden local governments of costs of roads/utilities. This
Court must make it clear that denying reasonable
accommodations is unacceptable, not only to protect the
disabled but all homeowners within the community who
will have to pay the legal fees related to denying reasonable
accommodations/enforcing the HOA’s Declaration. The
FHA is a statute over which everything is litigated, which
comes at a great financial and emotional expense to all
involved. The vagueness of the terms, and the inconsistent
enforcement of the FHA will continue to cause damaging
litigation and deprive the disabled fair and equal housing.
Court’s Decision Unsupported by Law, Contradicts
Findings of Fact/Record
The FHA is a federal statute, and therefore claims of
discrimination is a question of federal law. When Congress
has not provided statutory guidance, the issue should be
resolved according to federal law. Courts are bound to
support their decisions by case law but when there is no
similar state caselaw the State-Court should look to similar
federal cases to support its decision. Unfortunately, it is not
bound to any decision outside of their own appellate court
or this Court, thereby creating an uncertainty. Americans
access to fair and equal housing should not depend upon
the State in which they reside. Delaware FHA case-law is
scant to nil so this Ruling will be detrimental to the FHA’s
purpose. HOA’s can and will simply amend their
Declaration/CCR’s to “legally” keep those they find
unsavory out of their communities. The Court’s opinion
adds further impediments upon the disabled in obtaining
fair and equal treatment in the essential need for safe
housing within America’s communities. The State Court’s
unsupported decision departs so far from the accepted and
usual course of judicial proceedings and Federal Circuit’s
decisions that it demands review. Injury can be traced to
the State Court's overreaching, ignorance of the law, and/or
erroneous interpretation of federal statutes, and the injury
can only be redressed by a favorable decision in this Court.
Federal review of federal law is required when State courts

29
are not bound by federal-case-law and yet have it within
both their power and proper role to render binding
judgments on federal-law issues, subject only to review by
this Court. When a Court assists in depriving someone of
their Constitutional Rights, this Court must intervene
before the Court’s ruling sets root and sprouts rotten fruit,
that will bury the hard won ground to equal opportunity for
everyone. The absence of any supporting case law in this
case is enough to warrant review.
The Court improperly applied liability to Vester for
failing to “make a request for reasonable accommodations
for her son’s autism.” The Courts’ rationale makes as much
sense as faulting a wheelchair bound person for failing to
wheel themselves up 100 steps to fill out the “proper” forms
to request an accommodation for ramp.
Delaware Supreme Court Fails to Give Extra Care to
a Pro Se Litigant to Assure a Dismissal Will Not
Perpetuate the Deprivation of Constitutional Rights
Delaware is one of the few states without an intermediate
appeals court, limiting the opportunity for review to just
the Supreme Court, so it should pay extra care to assure
pro se parties are not discouraged from asserting their
rights and should want to make sure the lower courts don’t
deviate so far from precedent so as to invalidate laws and
not serve justice. The Court disregarded this Court’s
precedent failing to construe pro se pleadings liberally by
ignoring Vester’s initial informal request to exceed the
word-limit; “should the Court find Ms.Vester erred in
relying upon Microsoft Word’s word count and finds [the
Brief] to be over the word-limit, Vester respectfully requests
leave from the court to allow the submitted [Brief]...” The
purpose of procedural rules is to level the playing field
between parties. Pro Se parties are already at a
disadvantage. This Court guarantees that all filings
submitted by pro se litigants are to be held to less stringent
standards than formal pleadings drafted by lawyers, so that
their lack of knowledge will provide a "shield" protecting
the core of due process; a meaningful opportunity to be

30

heard. But when Courts hold pro se litigants to the same
professional standards expected of attorneys—especially
when forma pauperis pro se litigants do not choose to
appear pro se—the “shield” transforms into a “sword” in the
hands of the opposing represented party. When Courts
dismiss cases upon technical errors simply because a pro se
litigant’s ineptness, causes unintentional noncompliance
with procedural rules; Courts deter meritorious suits and
hinder pro se litigants. The Courts break their own rules by
not interpreting the rules “so as to do substantial justice”
It’s especially troublesome considering most pro se
pleadings involve protecting one’s civil rights27 and the
effectuation of laws protecting these rights is dependent
upon private suits in which, the Solicitor General says, the
complainants act not only on their own behalf but also "as
private attorneys general in vindicating a policy that
Congress considered to be of the highest priority." (Shannon
v. United States Dept, of Housing Urban Dev., 436 F.2d 809,
818 (CA3)). Courts justify the burden caused by treating
prisoners in a lenient manner, because a prisoners inequity
extends beyond the inability to pay for counsel, including
limited access to legal materials, sources of proof and access
to assistance from outside resources. Vester—a single
mother to an immune-deficient child during a pandemic—
has been self-quarantining inside of her home for the
duration of appeal below and through no fault of her own, is
subject to even less access to the necessary resources than
most prisoners are guaranteed and should have received at
least the leniency afforded pro se prisoners. “This duty to
accommodate is perfectly consistent with the wellestablished due process principle that, "within the limits of
practicability, a State must afford to all individuals a
meaningful opportunity to be heard" in its courts. (Boddie,

27 Indigent litigants asserting discrimination claims are unable to
obtain counsel even on a contingent fee basis therefore have no choice
but to proceed pro se.

31
401 U.S., at 379) (Tennessee v. Lane, 541 U.S. 509, 532-33
(2004))
This Case Presents an Opportunity for This Court to
Set Precedent That Will Significantly Curtail
Discrimination Against Our Most Vulnerable
Population. There Is No Contradiction of Fact
The disabled have been viewed as less than or ignored for
far too long. People in authority think they know the needs
of the disabled better than the disabled know themselves.
In 1927 this Court upheld a state’s right to forcibly sterilize
a person considered unfit to procreate. (Buck v. Bell, 274
U.S. 200 (1927) It only took 70 years, but this Court
affirmed a state’s obligations to provide covered program
services to eligible individuals with disabilities in the most
integrated setting appropriate to their needs. (Olmstead v.
L. C, 527 U.S. 581 (1999)) But where will they go if HOA’s
are resistant to granting accommodations that will enable
the disabled to live in the communities. If HOA’s are
entitled to wait until a judge tells them a requested
accommodation is reasonable and necessary it will either
overwhelm the legal system, dissuade the disabled from
asserting their rights because who should wait 8 years for a
necessity. The disabled are seeking accommodations so they
can have the same autonomy as everyone else. But lawsuits
and hearings force the disabled to publicize private and
sensitive information further traumatizing those with
invisible disabilities and will subject them to harassment
when their neighbors are assessed fees to engage in
lawsuits. When HOA’s are permitted to ignore reasonable
accommodation requests, there’s no incentive to
accommodate. Congress enacted the FHA over 50 years ago
prohibiting discrimination in housing based on race,
religion, national origin, and sex to remedy the inequity
that stemmed from unequal housing. It would take another
20 years before Congress would add disability as a
protected class making clear the acts that constitute a
discriminatory housing practice and declared these acts as
unlawful conduct and subject to penalties for violating the

32

acts therein. Most housing complaints are based upon
disability discrimination, more than double than those
based on race. HUD estimates much more go unreported.
Disability 4,767 - Race 2,002 - Retaliation 979
(https://www.hud.gov/sites/dfiles/FHEO/documents/FHEO%
20Report%20Final%20-%20Web%20Version.pdf) (2019)
The FHA is an announcement for change, a promise for
equality, protection, and accountability. The FHA
specifically provides penalties to vindicate the public
interest to dissuade similar actions in the future, to
ensuring fair housing throughout the United States. It’s
important to assure that every court’s decision upholds—
not hinders—the FHA’s purpose and intent because
housing providers will shape their actions based upon
Court rulings. If the Courts opinion stands, HOA’s who
decide they don’t want to permit a particular
accommodation, are permitted to simply ignore the request
claiming the request was somehow deficient. The FHA,
unlike other disability statutes, only suggests an
interactive process because the rule is clear. If the
requested accommodation is reasonable and necessary and
it’s refused, IT IS A VIOLATION. Simple. Congress never
intended to burden the disabled with “formal/proper”
requests. It is on the Provider to accommodate and request
further information IF the reason for the accommodation is
not clear. Instead providers either ignore the request and
hope it goes away or demand too much information, not to
help determine a reasonable accommodation but to try and
prove the accommodation isn’t needed. Sadly, in order to
change actions and attitudes, the Courts must make an
example of what could happen if you disobey. But they are
failing, despite the abundance of info available on how to
respond to requests for accommodation, the disability
complaints continue to rise. If providers actually believed
the FHA bore teeth, the numbers would go down.
Congress never intended for the FHA to only protect those
who were able to afford attorneys and willing to risk the
retaliation that comes from asserting their right to
equality. In other words, the rights guaranteed under the

33

Constitution are not limited to only those with the skill and
ability to overcome the barriers of the tedious rules of the
court; but sadly that is where we are. The Courts can’t
change a person’s prejudices, but it can prevent them from
acting on them and that will only happen if this Court
makes it clear that discrimination is punishable and will
not be tolerated. With that change all people will integrate,
and fears and misunderstandings will dissipate, exposure
breeds tolerance and understanding. The FHA has the
potential to be the most powerful tool in ending
discrimination, but it will never achieve its potential when
Courts fail to uphold the Act’s purpose, when the burden is
displaced onto the disabled to prove that the request was
enough to trigger the provider to act, and the provider has
no incentive to act. Finding a place to live, fulfills the basic
needs of shelter but also provides a sense of comfort and
security. When the disabled encounter housing
discrimination it creates devastating obstacles to an
essential part of life; safe shelter. While no two cases are
alike, and FHA requires case by case analysis; precedential
decisions serve to guide providers to resolve fair housing
matters informally or they open the door evading
consequence for discriminatory acts. Ending discrimination
in housing is dependent upon the protected classes seeking
enforcement of their rights, but there is no protection from
retaliation when the burden of proof is unattainable.
This Court could set precedent holding housingproviders liable for stonewalling the interactive process. By
making it clear providers are obligated to affirmatively act
every time a request for an accommodation is before them—
no matter the form of the request, the uncertainty of the
nexus of the unknown/invisible disability—to engage in
good-faith with the requester to determine a reasonable
accommodation.
This case is an ideal vehicle to consider these
important issues. The facts are not contested and the
elements of a §3604(f)(3)(B) claim are met. The Court
ordered HLHA to grant the accommodation, it just found it
was Vester’s fault for not making the request clear the 1st

34
time, in contradiction to the FHA and case-law. And failed
to hold HLHA accountable for short-circuiting the
interactive process that is essential in every reasonable
accommodation claim. If HLHA had allowed Vester to
appeal, or if HLHA had asked for verification more than 8
years ago they could not deny the accommodation is
necessary. This case goes beyond that as well, the fact that
HLHA had an explicit accommodation request and
verification in hand 8 months after the denying the initial
request and STILL did nothing points directly to HLHA’s
discriminatory intent. Because the Court found Vester’s
request for accommodation was pretextual, proves it only
took a conversation with Vester to determine ZV’s needs
are real, but HLHA ignored her and tried to shut her up
with a retaliatory lawsuit, dispositive question is whether
HLHA is liable for violation of the FHA.
This Court has recognized that “tj]udicial precedents are
presumptively correct and valuable to the legal community
as a whole. They are not merely the property of private
litigants and should stand unless a court concludes that the
public interest would be served by a vacatur.” (U.S.
Bancorp Mortg. Co. v. Bonner Mall P’ship, 513 U.S. 18, 26
(1994)
Conclusion
The Petition for a writ of certiorari should be granted.

Respectfully submitted,
JaKara Vester (Pro se)
32878 Inlet Way
Lewes, DE. 19958
(302) 827-2797
Jakaravesterl@gmail.com

STATUTORY PROVISIONS INVOLVED
I.
Constitutional
Fourteenth Amendment’s Equal Protection Clause/
Due Process Clause; "All persons born or naturalized in the
United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the
laws." (Shelley v. Kraemer, 334 U.S. 1, 8 n.4 (1948)
The Court below deprived Vester of due process of the law,
erroneously enforced Section 12 of HLHA’s Declaration by
awarding legal fees to HLHA when HLHA’s discriminatory
and ultra vires enforcement of HLHA’s Declaration denied
Vester equal use and enjoyment of their property thereby
depriving Vester of liberty and property.
The action of the lower courts in granting equitable relief in
the enforcement covenants constituted state action denying
Vester, equal protection of the laws in violation of the
Fourteenth Amendment.
Article I, Section 8 of the Constitution
II.
Statutes
42 U.S. Code § 3601. (et seq.) Declaration of policy
It is the policy of the United States to provide, within
constitutional limitations, for fair housing throughout the
United States.
42 U.S. Code § 3604 - Discrimination in the sale or
rental of housing and other prohibited practices
As made applicable by section 3603 of this title and
except as exempted by sections 3603(b) and 3607 of this title,
it shall be unlawful—
(b)To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a dwelling, or in
the provision of services or facilities in connection therewith,

because of race, color, religion, sex, familial status, or national
origin.
(f)(2) To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a dwelling, or in
the provision of services or facilities in connection with such
dwelling, because of a handicap of—
(A)that person; or
(B)a person residing in or intending to reside in that
dwelling after it is so sold, rented, or made available; or
(C)any person associated with that person.
(f)(3) For purposes of this subsection, discrimination
includes—
(B)a refusal to make reasonable accommodations in
rules, policies, practices, or services, when such
accommodations may be necessary to afford such person equal
opportunity to use and enjoy a dwelling
42 U.S. Code §3617: Interference, coercion, or
intimidation
It shall be unlawful to coerce, intimidate, threaten, or
interfere with any person in the exercise or enjoyment of, or
on account of his having exercised or enjoyed, or on account of
his having aided or encouraged any other person in the
exercise or enjoyment of, any right granted or protected by
section 3603, 3604, 3605, or 3606 of this title.
42 U.S. Code §3610 - Administrative enforcement;
preliminary matters
(a)Complaints and answers
(l)(A)(i) An aggrieved person may, not later than one
year after an alleged discriminatory housing practice has
occurred or terminated, file a complaint with the Secretary
alleging such discriminatory housing practice. The Secretary,
on the Secretary’s own initiative, may also file such a
complaint.
(B)Upon the filing of such a complaint—

(i)the Secretary shall serve notice upon the aggrieved
person acknowledging such filing and advising the aggrieved
person of the time limits and choice of forums provided under
this subchapter;
(ii)the Secretary shall, not later than 10 days after such
filing or the identification of an additional respondent under
paragraph (2), serve on the respondent a notice identifying
the alleged discriminatory housing practice and advising such
respondent of the procedural rights and obligations of
respondents under this subchapter, together with a copy of
the original complaint;
(iii)each respondent may file, not later than 10 days
after receipt of notice from the Secretary, an answer to such
complaint; and
(iv)the Secretary shall make an investigation of the
alleged discriminatory housing practice and complete such
investigation within 100 days after the filing of the complaint
(or, when the Secretary takes further action under subsection
(f)(2) with respect to a complaint, within 100 days after the
commencement of such further action), unless it is
impracticable to do so.
(C)If the Secretary is unable to complete the
investigation within 100 days after the fifing of the complaint
(or, when the Secretary takes further action under subsection
(f)(2) with respect to a complaint, within 100 days after the
commencement of such further action), the Secretary shall
notify the complainant and respondent in writing of the
reasons for not doing so.
(D) Complaints and answers shall be under oath or
affirmation, and may be reasonably and fairly amended at
any time.
(2)(A) A person who is not named as a respondent in a
complaint, but who is identified as a respondent in the course
of investigation, may be joined as an additional or substitute
respondent upon written notice, under paragraph (1), to such
person, from the Secretary.
(B)Such notice, in addition to meeting the requirements
of paragraph (1), shall explain the basis for the Secretary’s

belief that the person to whom the notice is addressed is
properly joined as a respondent.
(b)Investigative report and conciliation
(1) During the period beginning with the filing of such
complaint and ending with the filing of a charge or a
dismissal by the Secretary, the Secretary shall, to the extent
feasible, engage in conciliation with respect to such
complaint.
(^Referral for State or local proceedings
(1) Whenever a complaint alleges a discriminatory
housing practice—
(A)within the jurisdiction of a State or local public
agency; and
(B)as to which such agency has been certified by the
Secretary under this subsection; the Secretary shall refer
such complaint to that certified agency before taking any
action with respect to such complaint.
(2) Except with the consent of such certified agency, the
Secretary, after that referral is made, shall take no further
action with respect to such complaint...
42 U.S. Code § 3613 - Enforcement by private persons
(a)Civil action
(1)(A) An aggrieved person may commence a civil
action in an appropriate United States district court or State
court not later than 2 years after the occurrence or the
termination of an alleged discriminatory housing practice, or
the breach of a conciliation agreement entered into under this
subchapter, whichever occurs last, to obtain appropriate relief
with respect to such discriminatory housing practice or
breach.
(B)The computation of such 2-year period shall not
include any time during which an administrative proceeding
under this subchapter was pending with respect to a
complaint or charge under this subchapter based upon such
discriminatory housing practice. This subparagraph does not
apply to actions arising from a breach of a conciliation
agreement.

(2)An aggrieved person may commence a civil action
under this subsection whether or not a complaint has been
filed under section 3610(a) of this title and without regard to
the status of any such complaint, but if the Secretary or a
State or local agency has obtained a conciliation agreement
with the consent of an aggrieved person, no action may be
filed under this subsection by such aggrieved person with
respect to the alleged discriminatory housing practice which
forms the basis for such complaint except for the purpose of
enforcing the terms of such an agreement.
(3) An aggrieved person may not commence a civil
action under this subsection with respect to an alleged
discriminatory housing practice which forms the basis of a
charge issued by the Secretary if an administrative law judge
has commenced a hearing on the record under this subchapter
with respect to such charge.
(b)Appointment of attorney by court
Upon application by a person alleging a discriminatory
housing practice or a person against whom such a practice is
alleged, the court may—
(1) appoint an attorney for such person; or
(2) authorize the commencement or continuation of a
civil action under subsection (a) without the payment of fees,
costs, or security, if in the opinion of the court such person is
financially unable to bear the costs of such action.
(c)Relief which may be granted
(1)In a civil action under subsection (a), if the court
finds that a discriminatory housing practice has occurred or is
about to occur, the court may award to the plaintiff actual and
punitive damages, and subject to subsection (d), may grant as
relief, as the court deems appropriate, any permanent or
temporary injunction, temporary restraining order, or other
order (including an order enjoining the defendant from
engaging in such practice or ordering such affirmative action
as may be appropriate).
(2) In a civil action under subsection (a), the court, in
its discretion, may allow the prevailing party, other than the
United States, a reasonable attorney’s fee and costs. The

United States shall be liable for such fees and costs to the
same extent as a private person.
42 U.S.C §3602 Definitions
(h) “Handicap” means, with respect to a person—
(1)a physical or mental impairment which substantially
limits one or more of such person’s major life activities,
(2)a record of having such an impairment, or
(3) being regarded as having such an impairment,
(^“Conciliation” means the attempted resolution of
issues raised by a complaint, or by the investigation of such
complaint, through informal negotiations involving
the aggrieved person, the respondent, and the Secretary.
28 U.S.C §1443 - Civil rights cases
Any of the following civil actions or criminal prosecutions,
commenced in a State court may be removed by the defendant
to the district court of the United States for the district and
division embracing the place wherein it is pending:
(1)Against any person who is denied or cannot enforce in the
courts of such State a right under any law providing for the
equal civil rights of citizens of the United States, or of all
persons within the jurisdiction thereof;
(2)For any act under color of authority derived from any law
providing for equal rights, or for refusing to do any act on the
ground that it would be inconsistent with such law.
28 U.S. Code § 1447 - Procedure after removal generally
(a)In any case removed from a State court, the district court
may issue all necessary orders and process to bring before it
all proper parties whether served by process issued by the
State court or otherwise.
(b)It may require the removing party to file with its clerk
copies of all records and proceedings in such State court or
may cause the same to be brought before it by writ of
certiorari issued to such State court.
(c)A motion to remand the case on the basis of any defect
other than lack of subject matter jurisdiction must be made
within 30 days after the filing of the notice of removal under

section 1446(a). If at any time before final judgment it
appears that the district court lacks subject matter
jurisdiction, the case shall be remanded. An order remanding
the case may require payment of just costs and any actual
expenses, including attorney fees, incurred as a result of the
removal. A certified copy of the order of remand shall be
mailed by the clerk to the clerk of the State court. The State
court may thereupon proceed with such case.
(d)An order remanding a case to the State court from which it
was removed is not reviewable on appeal or otherwise, except
that an order remanding a case to the State court from which
it was removed pursuant to section 1442 or 1443 of this title
shall be reviewable by appeal or otherwise.
(e)If after removal the plaintiff seeks to join additional
defendants whose joinder would destroy subject matter
jurisdiction, the court may deny joinder, or permit joinder and
remand the action to the State court.
Title 6 - Commerce and Trade
CHAPTER 46. FAIR HOUSING ACT
§4601 Declaration of purpose and construction.
Universal Citation: 6 DE Code § 4601 (2015)
(a) Purpose. — This chapter is intended to eliminate, as to
housing offered to the public for sale, rent or exchange,
discrimination based upon race, color, national origin,
religion, creed, sex, marital status, familial status, age, sexual
orientation, gender identity or disability, and to provide an
administrative procedure through which disputes concerning
the same may effectively and expeditiously be resolved with
fairness and due process for all parties concerned.
(b) Construction. — This chapter shall be liberally construed
to the end that its purposes may be accomplished and all
persons may fully enjoy equal rights and access to housing for
themselves and their families. Furthermore, in defining the
scope or extent of any duty imposed by this chapter, including
the duty of reasonable accommodation, higher or more
comprehensive obligations established by otherwise

applicable federal, state or local enactments may be
considered.
§4603 Discrimination in sale or rental of housing and
other prohibited practices.
(a) For purposes of paragraphs (b)(l)-(5) of this section, the
unlawful discrimination against a person on the basis of a
specified protected status refers to the protected status of:
(1) That buyer, renter or aggrieved person;
(2) A person residing in or intending to reside in that
dwelling after it is sold, rented or made available; or
(3) Any person associated with that buyer or renter.
(b) Except as exempted by § 4607 of this title, it shall be
unlawful:
(1) To discriminate in the sale or rental, to refuse to sell or
rent, to refuse to negotiate for the sale or rental of, or
otherwise make unavailable or deny, a dwelling to any person
because of race, color, national origin, religion, creed, sex,
marital status, familial status, age, sexual orientation, gender
identity or disability.
(2) To discriminate against any person in the terms,
conditions or privileges of sale or rental of a dwelling, or in
the provision of services or facilities in connection therewith,
because of race, color, national origin, religion, creed, sex,
marital status, familial status, age, sexual orientation, gender
identity or disability.
(6) [Repealed.]
(c) Nothing in this section requires that a dwelling be made
available to persons with disabilities whose tenancy would
constitute a direct threat to the health or safety of other
individuals or whose tenancy would result in substantial
physical damage to the property of others.
§4603A Discrimination in sale or rental of housing and
other prohibited practices; additional provisions
relating to discrimination against persons with
disabilities.

(а) For purposes of this chapter, discrimination on the basis
of a individual's disability includes, but is not limited to:
(1) A refusal to permit, at the expense of the person with a
disability, reasonable modifications of existing premises
occupied or to be occupied by such person if such
modifications may be necessary to afford such person full
enjoyment of the premises; except that, in the case of a rental,
the landlord may where it is reasonable to do so condition
permission for a modification on the renter agreeing to restore
the interior of the premises to the condition that existed
before the modification, reasonable wear and tear excepted;
(2) A refusal to make reasonable accommodations in rules,
policies, practices or services, when such accommodations
may be necessary to afford such person equal opportunity to
use and enjoy a dwelling;
§4602 Definitions
(б) "Conciliation" means the attempted resolution of issues
raised by a complaint, or by the investigation of such
complaint, through informal negotiations involving the
aggrieved person, the respondent and the Commission.
(10) "Disability" means, with respect to a person:
a. A physical or mental impairment which substantially
limits 1 or more of such person's major life activities;
b. A record of having such an impairment; or
c. Being regarded as having such an impairment, but such
term does not include current, illegal use of a controlled
substance as defined in § 102 of the Controlled Substances
Act (21 U.S.C. 802) or Title 16 of Chapter 47, Uniform
Controlled Substances Act.
(11) "Discriminatory housing practice" means an act that is
unlawful under § 4603, § 4604, § 4605, § 4606 or § 4618 of this
title.
(12) "Division" means the Division of Human Relations.
(13) "Dwelling" means any building, structure or portion
thereof which is occupied as, or designed or intended for
occupancy as, a residence by 1 or more families, together with
any land which is offered for sale, rent or exchange therewith
and also means any vacant land which is offered for sale,

lease or exchange for the construction or location thereon of
any such building, structure or portion thereof. "Dwelling"
also includes the public and common use areas associated
therewith.
(14) "Familial status" means: one or more individuals who
have not attained the age of 18 years being domiciled with:
a. A parent or another person having legal custody of such
individual or individuals; or
b. The designee of such parent or other person having such
custody, with the written permission of such parent or other
person; or
c. Any person who is pregnant or is in the process of securing
legal custody of any individual who has not attained the age
of 18 years.
(15) "Family" includes a single individual.
§4610 Administrative enforcement; preliminary
matters.
(b) Investigative report and conciliation. —
(1) During the period beginning with the filing of such
complaint and ending with the filing of a charge or a
dismissal by the Division, the Division shall, to the extent
feasible, engage in conciliation with respect to such
complaint.
§4618 Interference, coercion or intimidation.
It shall be unlawful to coerce, intimidate, threaten or
interfere with any person in the exercise or enjoyment of, or
on account of that person having exercised or enjoyed, or on
account of that person having aided or encouraged any other
person in the exercise or enjoyment of, any right granted or
protected by § 4603, § 4604, § 4605 or § 4606 of this title.
III. Regulations
24 CFR §100.65 Discrimination in terms, conditions and
privileges and in services and facilities.
(a) It shall be unlawful, because of race, color, religion,
sex, handicap, familial status, or national origin, to impose

different terms, conditions or privileges relating to the
sale or rental of a dwelling or to deny or limit services
or facilities in connection with the sale or rental of
a dwelling.
(b) Prohibited actions under this section include, but
are not limited to:
(4) Limiting the use of privileges, services or
facilities associated with a dwelling because of race, color,
religion, sex, handicap, familial status, or national origin of
an owner, tenant or a person associated with him or her.
(6) Conditioning the terms, conditions, or privileges
relating to the sale or rental of a dwelling, or denying or
limiting the services or facilities in connection therewith, on
a person's response to harassment because of race, color,
religion, sex, handicap, familial status, or national origin.
(7) Subjecting a person to harassment because of race,
color, religion, sex, handicap, familial status, or national
origin that has the effect of imposing different terms,
conditions, or privileges relating to the sale or rental of
a dwelling or denying or limiting services or facilities in
connection with the sale or rental of a dwelling.
24 CFR § 100.202 General prohibitions against
discrimination because of handicap
(b) It shall be unlawful to discriminate against any
person in the terms, conditions, or privileges of the sale or
rental of a dwelling, or in the provision of services or facilities
in connection with such dwelling, because of a handicap of (1) That buyer or renter;
(2) A person residing in or intending to reside in that
dwelling after it is so sold, rented, or made available; or
(3) Any person associated with that person.
(c) It shall be unlawful to make an inquiry to determine
whether...a person intending to reside in that dwelling after it
is so sold, rented or made available, or any person associated
with that person, has a handicap or to make inquiry as to the
nature or severity of a handicap of such a person.
24 CFR §100.204 Reasonable accommodations

(a) It shall be unlawful for any person to refuse to make
reasonable accommodations in rules, policies, practices, or
services, when such accommodations may be necessary to
afford a handicapped person equal opportunity to use and
enjoy a dwelling unit, including public and common use areas.
(b) The application of this section may be illustrated by
the following examples:
Example (1):
A blind applicant for rental housing wants to live in a
dwelling unit with a seeing eye dog. The building has a no
pets policy. It is a violation of §100.204 for the owner or
manager of the apartment complex to refuse to permit the
applicant to live in the apartment with a seeing eye dog
because, without the seeing eye dog, the blind person will not
have an equal opportunity to use and enjoy a dwelling.
Example (2):
Progress Gardens is a 300-unit apartment complex
with 450 parking spaces which are available to tenants and
guests of Progress Gardens on a first come first served basis.
John applies for housing in Progress Gardens. John is
mobility impaired and is unable to walk more than a short
distance and therefore requests that a parking space near his
unit be reserved for him so he will not have to walk very far to
get to his apartment. It is a violation of §100.204 for the
owner or manager of Progress Gardens to refuse to make this
accommodation. Without a reserved space, John might be
unable to live in Progress Gardens at all or, when he has to
park in a space far from his unit, might have great difficulty
getting from his car to his apartment unit. The
accommodation therefore is necessary to afford John an equal
opportunity to use and enjoy a dwelling. The accommodation
is reasonable because it is feasible and practical under the
circumstances.
24 CFR §100.400 Prohibited interference, coercion or
intimidation
(a) This subpart provides the Department's
interpretation of the conduct that is unlawful under section
818 of the Fair Housing Act.

(b) It shall be unlawful to coerce, intimidate, threaten,
or interfere with any person in the exercise or enjoyment of,
or on account of that person having exercised or enjoyed, or on
account of that person having aided or encouraged any
other person in the exercise or enjoyment of, any right
granted or protected by this part.
(c) Conduct made unlawful under this section includes,
but is not limited to, the following:
(1) Coercing a person, either orally, in writing, or by
other means, to deny or limit the benefits provided
that person in connection with the sale or rental of
a dwelling or in connection with a residential real estaterelated transaction because of race, color, religion,
sex, handicap, familial status, or national origin.
(2) Threatening, intimidating or interfering
with persons in their enjoyment of a dwelling because of the
race, color, religion, sex, handicap, familial status, or national
origin of such persons, or of visitors or associates of such
persons.
(4) Intimidating or threatening any person because
that person is engaging in activities designed to make
other persons aware of, or encouraging such other persons to
exercise, rights granted or protected by this part.
(5) Retaliating against any person because
that person has made a complaint, testified, assisted, or
participated in any manner in a proceeding under the Fair
Housing Act.
(6) Retaliating against any person because
that person reported a discriminatory housing practice to a
housing provider or other authority.
24 CFR § 100.7 Liability for discriminatory housing
practices.
(a) Direct liability.
(1) A person is directly liable for:
(i) The person's own conduct that results in
a discriminatory housing practice.
(ii) Failing to take prompt action to correct and end
a discriminatory housing practice by that person's employee

or agent, where the person knew or should have known of the
discriminatory conduct.
(iii) Failing to take prompt action to correct and end
a discriminatory housing practice by a third-party, where
the person knew or should have known of the discriminatory
conduct and had the power to correct it. The power to take
prompt action to correct and end a discriminatory housing
practice by a third-party depends upon the extent of
the person's control or any other legal responsibility
the person may have with respect to the conduct of such thirdparty.
(2) For purposes of determining liability under
paragraphs (a)(l)(ii) and (iii) of this section, prompt action to
correct and end the discriminatory housing practice may not
include any action that penalizes or harms the aggrieved
person, such as eviction of the aggrieved person.
(b) Vicarious liability. A person is vicariously liable for
a discriminatory housing practice by the person's agent or
employee, regardless of whether the person knew or should
have known of the conduct that resulted in a discriminatory
housing practice, consistent with agency law.
[81 FR 63074, Sept. 14, 2016]
24 CFR §100.201 Definitions
Handicap means, with respect to a person, a physical
or mental impairment which substantially limits one or more
major life activities; a record of such an impairment; or being
regarded as having such an impairment.
(a) Physical or mental impairment includes:
(1) Any physiological disorder or condition, cosmetic
disfigurement, or anatomical loss affecting one or more of the
following body systems: Neurological...special sense organs;
respiratory, including speech organs ...digestive; genito­
urinary; hemic and lymphatic; skin; and endocrine; or
(2) Any mental or psychological disorder, such as
mental retardation, organic brain syndrome, emotional or
mental illness, and specific learning disabilities. The
term physical or mental impairment includes, but is not
limited to, such diseases and conditions as orthopedic, visual,

speech and hearing impairments, cerebral palsy, autism.
epilepsy, muscular dystrophy, multiple sclerosis, cancer,
heart disease, diabetes, Human Immunodeficiency
Virus infection, mental retardation, emotional illness, drug
addiction (other than addiction caused by current, illegal use
of a controlled substance) and alcoholism.
Del. R. Evid. 408
Rule 408 - Compromise Offers and Negotiations
(a)Prohibited Uses. Evidence of the following is not
admissible on behalf of any party either to prove or disprove
the validity or amount of a disputed claim or to impeach by a
prior inconsistent statement or a contradiction:(l) furnishing,
promising, or offering - or accepting, promising to accept, or
offering to accept - a valuable consideration in order to
compromise the claim; and(2) conduct or a statement made
during compromise negotiations about the claim.
(b) Exceptions. The court may admit this evidence for
another purpose, such as proving a witness's bias or
prejudice, negating a contention of undue delay, or proving an
effort to obstruct a criminal investigation or prosecution.
Del. R. Evid. 408
Amended November 28, 2017, effective January 1, 2018.
Comment: This rule generally tracks F.R.E. 408.
This rule modifies existing Delaware case law. See Hudson v.
Williams, Del. Super., 72 A. 985 (1908).
D.R.E. 408 was amended in 2017 in response to the 2011
restyling of the Federal Rules of Evidence. The amendment is
intended to be stylistic only. Thepre-2017 "Comment"to
D.R.E. 408 was revised only as necessary to reflect the 2017
amendments. There is no intent to change any result in ruling
on evidence admissibility.
Fed. R. Evid. 408- Compromise Offers and Negotiations
(a) PROHIBITED USES. Evidence of the following is not
admissible-on behalf of any party-either to prove or disprove
the validity or amount of a disputed claim or to impeach by a
prior inconsistent statement or a contradiction:

(1) furnishing, promising, or offering-or accepting, promising
to accept, or offering to accept-a valuable consideration in
compromising or attempting to compromise the claim; and
(2) conduct or a statement made during compromise
negotiations about the claim-except when offered in a
criminal case and when the negotiations related to a claim by
a public office in the exercise of its regulatory, investigative,
or enforcement authority.
(b) EXCEPTIONS. The court may admit this evidence for
another purpose, such as proving a witness's bias or
prejudice, negating a contention of undue delay, or proving an
effort to obstruct a criminal investigation or prosecution.
28 APPENDIX U.S.C. § 408
NOTES OF COMMITTEE ON THE JUDICIARY,
SENATE REPORT NO. 93-1277
This amendment adds a sentence to insure that evidence, such
as documents, is not rendered inadmissible merely because it
is presented in the course of compromise negotiations if the
evidence is otherwise discoverable. A party should not be able
to immunize from admissibility documents otherwise
discoverable merely by offering them in a compromise
negotiation.
NOTES OF CONFERENCE COMMITTEE, HOUSE
REPORT NO. 93-1597
The Senate amendment also provides that the rule does not
require the exclusion of any evidence otherwise discoverable
merely because it is presented in the course of compromise
negotiations. The House bill was drafted to meet the objection
of eocecutive agencies that under the rule as proposed by the
Supreme Court, a party could present a fact during
compromise negotiations and thereby prevent an opposing
party from offering evidence of that fact at trial even though
such evidence was obtained from independent sources. The
Senate amendment expressly precludes this result. The
Conference adopts the Senate amendment.
COMMITTEE NOTES ON RULES-2006 AMENDMENT

“The amendment does not affect the case law providing that
Rule 408 is inapplicable when evidence of the compromise is
offered to prove notice” Fed. R. Evid. 408
NOTES OF CONFERENCE COMMITTEE, HOUSE
REPORT NO. 93-1597 The House bill provides that evidence
of admissions of liability or opinions given during compromise
negotiations is not admissible, but that evidence of facts
disclosed during compromise negotiations is not inadmissible
by virtue of having been first disclosed in the compromise
negotiations. The Senate amendment provides that evidence of
conduct or statements made in compromise negotiations is not
admissible. The Senate amendment also provides that the rule
does not require the exclusion of any evidence otherwise
discoverable merely because it is presented in the course of
compromise negotiations. The House bill was drafted to meet
the objection of executive agencies that under the rule as
proposed by the Supreme Court, a party could present a fact
during compromise negotiations and thereby prevent an
opposing party from offering evidence of that fact at trial even
though such evidence was obtained from independent sources.
The Senate amendment expressly precludes this result. The
Conference adopts the Senate amendment.

IV.

State Court Rules 7
Delaware Supreme Court Rule 29(b):
“Involuntary dismissal upon notice of the Court. —The
Court may order a complaint, petition or appeal dismissed,
sua sponte, upon notice of the Court. Dismissal upon notice
may be ordered for lack of subject matter jurisdiction, for
untimely filing of an appeal, for appealing an unappealable
interlocutory order, for failure of a party diligently to
prosecute the appeal, for failure to comply with any rule,
statute, or order of the Court, or for any other reason deemed
by the Court to be appropriate.

7 httns7/courts.delaware.gov/rules/pdf/SupremeCourtRules~ 11~ 1~
19.pdf

Delaware Supreme Court Rule 13: Form of briefs,
appendices and other papers.
(a) Briefs and appendices. —
(i) Typed. —All text, including text in footnotes, shall
be in Times New Roman 14-point typeface. Unrepresented
parties without access to a typewriter or word processing
program may submit papers in legible handwriting. Case
names must be italicized or underlined.
Delaware Supreme Court Rule 14. Briefs and
appendices; contents.
(d) Length of Briefs.
(i) Type-volume limitation. Without leave of Court, an
opening or answering brief shall not exceed 10,000 words, and
no reply brief shall exceed 5,500 words. Where there is a
cross-appeal, the answering/opening brief on cross-appeal of
appellee shall not exceed 14,000 words and the
reply/answering brief on cross-appeal of appellant shall not
exceed 10,000 words...
The front cover, material required by paragraphs (b)(i)
and (ii), signature block, and any footer included pursuant to
Rule 10.2(5), do not count toward the limitation. All other text
must be counted toward the limitation
(ii) Certificate of compliance. (A) Any brief subject to
Rule 14(d)(i) must include a certificate of compliance by
counsel or an unrepresented party that the brief complies
with the typeface requirement of Rule 13(a) and type-volume
limitation of Rule 14(d)(i). The person preparing the
certificate must state the number of words in the brief and
may rely on the word count of the word processing
program used to prepare the brief.
(B) Form R is a suggested form of a certificate for
compliance. Use of Form R is sufficient to meet the
requirements ofparagraph (d)(ii)(A) of this rule.
(iii) Page limitations for unrepresented parties
without access to a word processing program. Without
leave of Court, an opening or answering brief shall not exceed
a total of thirty-five pages and a reply brief shall not exceed

twenty pages, exclusive of appendix. Where there is a cross­
appeal, the answering /opening brief on cross-appeal of
appellee shall not exceed fifty pages and the reply/answering
brief on cross appeal of appellant shall not exceed thirty-five
pages, exclusive of appendix. The reply brief on cross-appeal
of the appellee, if any, shall not exceed twenty pages. In the
calculation of pages, the material required by paragraphs
(b)(i) and (ii) of this rule is excluded and the material required
by paragraphs (b)(iii) through (vi) of this rule is included.
(iv) Footnotes shall not be used for argument ordinarily
included in the body of a brief.
(v) Extensions. The Court looks with disfavor upon
motions to exceed the type-volume or page limitation, and
such motions will be granted only for good cause shown. Any
motion filed pursuant to this section must be filed at least five
days before the due date for the filing of the brief to which it
relates.
Rule 15. Briefs and appendices; time for service and
filing.
(iv) Untimely motions for extensions. —If a motion for
extension is filed less than five days in advance of the due
date, the motion will ordinarily be denied unless the moving
party demonstrates not only exceptional circumstances for the
extension but also exceptional circumstances justifying the
late filing of the motion, demonstrating that the latter
circumstances did not exist or could not with due diligence
have been known or communicated to the Court earlier, (v)
Untimely submissions may not be filed. —The Clerk of the
Court may not accept for docketing an untimely filed brief or
appendix unless the filing party first obtains leave to file out
of time under the provisions of this Rule. If leave is not
obtained, the Clerk of the Court will take the appropriate
action as directed by the Court, which action may include
dismissal of the appeal if the appellant has not filed a timely
brief or, in the case of the appellee, a decision by the Court on
the basis of the record and papers that have been timely filed,
(vi) Motions for extensions filed after due date. —No motion
for an extension filed after the due date for the brief or
appendix will be entertained unless the party requesting the

extension demonstrates that the interests of justice require
the relief requested notwithstanding the failure to comply
with this Rule. In such a case an extension may be granted in
the discretion of the Justice for a period of not more than
three days, (vii) Exceptional circumstances defined. —
“Exceptional circumstances” for purposes of this Rule means
serious or disabling illness or injury; death of an immediate
family member; act of God; state or national emergency; or
other circumstances of similar unavoidable nature, (viii)
Certification for untimely motions; sanctions. —Any motion
filed by an attorney under subsection (iv) or subsection (vi)
shall include a certification from the attorney identifying all
other motions for extensions filed in all other cases during the
six months preceding the date of the current motion and
noting which, if any, of those prior motions were filed under
subsection (iv) or subsection (vi). Any attorney who, during
the preceding six months, has filed more than two such out-oftime motions, will be subject to discipline for a performance
deficiency under Supreme Court Rule 33.
Rule 102. General provisions.
(a) Construction.—These Rules shall be construed
so as to do substantial justice and to provide for the speedy
and efficient determination of proceedings in this Court.
(b) Conduct of attorneys and litigants. —Attorneys and
litigants shall conduct themselves before the Court in a
manner consistent with the letter and spirit of these Rules.
Attorneys are expected to take all necessary steps to avoid
unreasonable delays and are expected to present all matters
and papers to the Court with the highest professional
competence and integrity.
(c) Meaning of terms. —All terms in these Rules shall
have their usual meanings. Use of the singular shall include
the plural. Reference to “trial court” shall refer to any
tribunal to which a direct appeal to this Court shall lie.
Rule 33. Sanctions and discipline for
performance deficiency.
(a) Sanctions. —Upon failure of a party or counsel to
comply with any rule or order, the Court may enter an
appropriate sanction against the offending party or counsel,

or both, after notice and opportunity to be heard. Such
sanction may include the award of reasonable attorneys’ fees
and the determination of an appeal against the offending
party. Disciplinary action, including imposition of a fine, may
be taken against any offending counsel. The term “counsel”
shall be deemed to include counsel admitted pro hac vice.
(b) Performance deficiency defined. —The Court may
also take disciplinary action against an attorney admitted to
practice before it and those admitted pro hac vice for
unprofessional conduct constituting performance deficiency,
as hereafter defined, for which referral to the Board on
Professional Responsibility may or may not also be
warranted. Performance deficiency shall be generally
understood to mean unacceptable performance by an
attorney which is not attributed to incompetency and
which appears to be the result of inattention, neglect, lack of
diligence or other conduct not becoming an officer of the Court.
Discipline for performance deficiency may be imposed for:
(i) Persistent failure to abide by or comply with the
rules, orders or other directives of the Court or its staff;
(ii) submission of briefs, oral argument or other
communications to the Court or its staff that are either
lacking in candor or grossly below customary professional
standards.
(c) Disciplinary action for performance deficiency. —
Disciplinary action for performance deficiency may include
one or more of the following sanctions against the offending
attorney:
(i) Costs. —Imposition of costs, expenses and
reasonable attorneys’ fees;
(ii) Fine. —A fine in such amount as the Court
determines;
(iii) Disqualification. —Disqualification from
submitting papers and appearing before the Court for a
period of up to 90 days; (iv) Reprimand. —A private or public
reprimand; or (v) Other sanction. —Such other sanction as
the Court deems appropriate including but not limited to
referring the matter to the Office of Disciplinary Counsel. In
the event the Court shall conclude that performance

deficiency discipline may be appropriate, the Clerk shall
forward to the lawyer-respondent a notice directing the
lawyer-respondent to show cause why the lawyer-respondent
should not be subjected to performance deficiency discipline.
The notice shall state with precision the particular
performance relied upon and may include as an attachment a
recitation of the infractions of the rule, order or other
directive, the brief or briefs or other communications in
question and/or a transcript of the oral argument in question.
The notice shall direct the lawyer-respondent to respond
within 10 days after receipt of the notice and to indicate in
such response whether a hearing is requested. The lawyerrespondent’s response shall attach a current and complete
record of all the lawyer-respondent’s prior disciplinary
matters in Delaware or any other jurisdiction. The Court,
upon the expiration of the time for a response, shall take such
action as it deems appropriate; provided, however, that no
action shall be taken without a hearing if one is requested in
a response.
Rule 34. Nonconforming papers.
The Court may strike any brief, appendix, motion or
other paper or document which does not conform to these
Rules or which is not within the bounds of professional
propriety.
Delaware Uniform Rules of Evidence
Article I. General Provisions
Rule 101. Scope; Definitions.
(a) Scope. These Rules apply to proceedings in the courts of
this State. The specific courts and proceedings to which
the Rules apply, along with exceptions, are set out in
Rule 1101
Comment This rule largely follows F.R.E. 101, except that
it refers to the courts of this State rather than the United
States.
ARTICLE II. JUDICIAL NOTICE
Rule 201. Judicial Notice of Adjudicative Facts.

(a) Scope. This Rule governs judicial notice of an
adjudicative fact only, not a legislative fact.
(b) Kinds of Facts That May Be Judicially Noticed. The
court may judicially notice a fact that is not subject to
reasonable dispute because it:
(1) is generally known within the trial court’s territorial
jurisdiction; or
(2) can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.
(c) Taking Notice. The court:
(1) may take judicial notice on its own; or
(2) must take judicial notice if a party requests it and the
court is supplied with the necessary information.
(d) Timing. The court may take judicial notice at any stage
of the proceeding.
(e) Opportunity to Be Heard. On timely request, a party is
entitled to be heard on the propriety of taking judicial
notice and the nature of the fact to be noticed. If the court
takes judicial notice before notifying a party, the party, on
request, is still entitled to be heard.
(f) Instructing the Jury. Upon request, the court must
instruct the jury to accept the noticed fact as conclusive.
Comment
This rule largely tracks F.R.E. 201 except for 201(f) (see
discussion below).
This article is limited to adjudicative facts. In the interests
of uniformity, the Committee rejected a proposal that this
rule be expanded to cover legislative facts. See Davis,
“Judicial Notice,” reprinted in Weinstein, pp. 201-22;
McCormick §§ 328, 331; F.R.E. Advisory Committee’s note
to article II.
The Committee recognized that courts sometimes
judicially recognize legislative facts without giving the
parties an opportunity to comment on the facts proposed to
be judicially noticed. While recognizing that this may
sometimes be unfair, the Committee did not think it
should address this problem at this time.

ADDITIONAL CITATIONS
(“ROBERT G. SCHWEMM, HOUSING DISCRIMINATION
LAW AND LITIGATION §20:5 (July 2020) (3 part retaliation
claims : citing cases applying similar test across federal
circuits) (Bryant u. City of Norfolk, Civil Action No. 2:20CV26
(RCY) (E.D. Va. Feb. 26, 2021)
https://crsreports.congress.gov/product/DdfyRL/95-710/23
https://lawverscommittee.org/wpcontent/uploads/2015/08/The-Future-of-Fair-HousingNational-Commission-on-Fair-Housing-and-EaualOpportunitv.pdf
https://www.hud.gov/offices/fheo/library/huddojstatement.pdf
https://www.hud.gov/sites/dfiles/FHEO/documents/FHEQ%20
Report%20Final%20-%20Web%20Version.pdf
https://scholarworks.iupui.edU/bitstream/handle/1805/14800/J
ones 2017 subtle.pdf/seauence^l
https://chicagounbound.uchicago.edu/cgi/viewcontent.cgi7artic
le=4573&context=uclrev
Autism-Societv.org
https://equalrightscenter.org/wp-content/uploads/makipghome-accessible-toolkit-9.5.pdf
https://www.hud.gov/sites/dfiles/ENF/documents/6228-F01%20Preserving%20Housing%20and%20Neighborhood%20C
hoice.pdf

